<html>
<title> - ARLINGTON NATIONAL CEMETERY: AN UPDATE ON REFORM AND PROGRESS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                      ARLINGTON NATIONAL CEMETERY:
                    AN UPDATE ON REFORM AND PROGRESS

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 6, 2011

                               __________

                           Serial No. 112-30

                               __________

       Printed for the use of the Committee on Veterans' Affairs






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                  U.S. GOVERNMENT PRINTING OFFICE
71-382                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               JERRY McNERNEY, California, 
ANN MARIE BUERKLE, New York          Ranking
MARLIN A. STUTZMAN, Indiana          JOHN BARROW, Georgia
BILL FLORES, Texas                   MICHAEL H. MICHAUD, Maine
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.














                            C O N T E N T S

                               __________

                            October 6, 2011

                                                                   Page

Arlington National Cemetery: An Update on Reform and Progress....     1

                           OPENING STATEMENTS

Chairman Jon Runyan..............................................     1
    Prepared statement of Chairman Runyan........................    22
Hon. Jerry McNerney, Ranking Democratic Member...................     2
    Prepared statement of Congressman McNerney...................    22

                                 ______

                               WITNESSES

U.S. Department of Defense:

  Major General William H. McCoy, USA, Acting Inspector General, 
    Department of the Army Inspector General Agency..............     3
      Prepared statement of General McCoy........................    23
  Kathryn A. Condon, Executive Director, National Cemeteries 
    Program, Office of the Secretary of the Army, Department of 
    the Army.....................................................    13
      Prepared statement of Ms. Condon...........................    30

                                 ______

                       SUBMISSIONS FOR THE RECORD

American Legion, Ian de Planque, Deputy Director, National 
  Legislative Commission, statement..............................    33
Reserve Officers Association of the United States, and Reserve 
  Enlisted Association of the United States, joint statement.....    34

 
     ARLINGTON NATIONAL CEMETERY: AN UPDATE ON REFORM AND PROGRESS

                              ----------                              


                       THURSDAY, OCTOBER 6, 2011

         U.S. House of Representatives,    
                Committee on Veterans' Affairs,    
                  Subcommittee on Disability Assistance    
                                      and Memorial Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:50 a.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, Lamborn, Stutzman, 
McNerney, Barrow, and Walz.

              OPENING STATEMENT OF CHAIRMAN RUNYAN

    Mr. Runyan. Well, good afternoon and welcome. This 
oversight hearing of the Subcommittee on Disability Assistance 
and Memorial Affairs will now come to order.
    I would first like to thank Major General McCoy and thank 
him for his service, as I have been notified that you will be 
retiring in November after 37 years of service to this great 
country. So thank you for your service. And also, Ms. Condon 
and Mr. Hallinan, for lending us their valuable time to have 
this discussion about the progress and moving forward at 
Arlington.
    A couple months ago, Ms. Condon and Mr. Hallinan testified 
before this Subcommittee on the progress they have made after 
taking over the administration of Arlington following the 
deplorable report that the Army Inspector General (IG) gave 
last year. They are here today to continue the discussion of 
the progress that has been made at Arlington and the work that 
continues to be done there.
    There are many veterans' cemeteries across this great land. 
Each of these sites is very hallowed ground. Every grave marker 
honors the memory of our Nation's heroes who have been laid to 
rest. Yet, Arlington National Cemetery (ANC) has long been a 
national symbol of these sacred memorials while remaining 
unique and special in the minds of all American citizens.
    As I mentioned a few months ago at our previous hearings on 
Arlington, it is clear that 1 year would not be enough time to 
correct the many problems at Arlington National Cemetery and to 
fix every issue brought by the years of neglect and 
mismanagement. I know we all share this sense of urgency in 
continuing to address the issues at Arlington and can agree 
that tremendous strides have been accomplished by the new team.
    Ms. Condon and Mr. Hallinan, as the Chair of this 
Subcommittee, I want to personally commend you for your efforts 
in bringing about these much-needed changes. Today my focus, 
and the focus of this hearing, is on the progress moving 
forward with the strong foundation laid by this new 
administration at Arlington National Cemetery.
    In particular, I should note that this foundation includes 
the most recent Army IG's report, which found substantial 
corrections from the past deficiencies identified in the 
initial report that brought many of these challenges to light. 
In short, due to your diligence, hard work, and excellent 
management, the problems which plagued Arlington National 
Cemetery just 1 year ago have been addressed and the majority 
have been eliminated.
    Moving forward, I hope to learn how the progress will be 
sustained and your plans to strengthen the improvements already 
made. In particular, based on the IG's report's key 
recommendations, I look forward to hearing your thoughts on 
creation of a multiservice policy for Arlington, long-term 
command planning and oversight of the Army national cemeteries, 
and interment wait times and the Cemetery life-span in reaching 
its full capacity.
    Again, I would like to thank all of you for being here 
today, and thank you for your commitment to this great Cemetery 
for our true American heroes.
    Mr. Runyan. And with that, I would like to call on the 
Ranking Member for any opening statement he would have. Mr. 
McNerney.
    [The prepared statement of Chairman Runyan appears on p. 
22.]

            OPENING STATEMENT OF HON. JERRY MCNERNEY

    Mr. McNerney. Thank you, Mr. Chairman. I would like to 
thank you for holding today's hearing, ``An Update on Reform 
and Progress at Arlington National Cemetery.'' This hearing 
follows up on a June 23, 2011, Subcommittee hearing on this 
issue where numerous concerns were raised and discussed--
particularly in regards to an archaic, paper-based 
recordkeeping system, inappropriate contracting and management, 
and mistaken identities of grave sites at Arlington National 
Cemetery.
    I think we all agree that Arlington National Cemetery is an 
unparalleled national treasure that serves a very unique 
mission. As the preferred burial site for many of America's 
veterans, dignitaries including U.S. Presidents, Supreme Court 
Justices, and many of those who died on the attack of September 
11, 2001, these hallowed grounds should be maintained and 
operated at the highest levels of excellence.
    Today we will be examining the recently issued report from 
the Army Inspector General, which includes 31 observations and 
53 recommendations. On September 18, 2011, the Secretary of the 
Army, as directed by Public Law 111-339, a law which outlines 
the required reporting regarding Arlington National Cemetery, 
issued his assessment to Congress of the U.S. Department of 
Defense (DoD) Inspector General's recommendations and 
observations. I am glad that we will be able to evaluate the 
findings in the Secretary's report.
    More importantly, I am pleased that both reports indicate 
that the mismanagement and dysfunction found during the Army's 
original investigation in the summer of 2010 no longer exist.
    However, I know that problems of this magnitude that 
plagued Arlington in the past will not just disappear 
overnight. As such, I look forward to hearing more from our 
witnesses today about the work that remains to ensure the 
proper operations, management, and maintenance of this revered 
site. I also want to delve further into the current reforms 
underway to make sure that we stay on the right track of 
increased efficiency and efficacy.
    I would like to thank our witnesses for reappearing before 
us today. I commend the demonstrable dedication that Ms. 
Kathryn Condon, the Executive Director of the Army National 
Cemeteries Program, along with Mr. Pat Hallinan, the 
Superintendent formerly with the U.S. Department of Veterans 
Affairs' (VA's) National Cemetery Administration (NCA) have 
shown.
    Thank you both for your hard work and leadership thus far. 
As you reorganize, retrain, and retool, I hope that you will 
continue in this vein. Our veterans and their loved ones 
deserve no less.
    I yield back.
    [The prepared statement of Congressman McNerney appears on 
p. 22.]
    Mr. Runyan. Thank you, Mr. McNerney. And with that, I would 
like to welcome our first witness, Major General McCoy, the 
Army Inspector General. General McCoy, your complete written 
statement will be entered into the hearing record, and with 
that, I now recognize you for 5 minutes for your statement.

   STATEMENT OF MAJOR GENERAL WILLIAM H. MCCOY, USA, ACTING 
  INSPECTOR GENERAL, DEPARTMENT OF THE ARMY INSPECTOR GENERAL 
           AGENCY (DAIG), U.S. DEPARTMENT OF DEFENSE

    General McCoy. Thank you, Chairman, Ranking Member McNerney 
and distinguished Members of the Committee. Thank you for the 
invitation and the opportunity to speak to you today about 
Arlington National Cemetery.
    As the Deputy Army IG since October of 2008, and also the 
acting Inspector General since August of 2010, I have been 
intimately involved in all efforts concerning Arlington almost 
continuously since July of 2009. After reviewing our 2010 
inspection report and our investigation, the Secretary of the 
Army set the course for correcting Cemetery processes and 
procedures by issuing his Army Directive 2010-04. Our 2011 
inspection evaluated progress in making corrections to the 
inspection findings as well as implementation of that Army 
directive. The remainder of my opening statement will address 
some of the findings we found.
    Up front, I believe our report and what you will hear today 
will show that the changes that have taken place in the last 
year is a good-news story. I am proud to report that the 
deficiencies have been substantially corrected this year and 
that the mismanagement reported to you last year no longer 
exists.
    Since the Secretary signed his directive, the Executive 
Director has led her staff and other Army stakeholders to make 
significant improvements at Arlington while still accomplishing 
the Cemetery's daily mission. Of note, compared to last year's 
inspection where we found numerous deficiencies, this year 
there were no deficiencies noted. We made 31 observations and 
noted two other matters on the progress that has been made and 
the work still to be done. This alone underscores the 
tremendous progress ANC and the Army have made in correcting 
the problems at Arlington.
    First, I want to address the culture. The insularity which 
contributed so significantly to the mismanagement last year no 
longer exists at Arlington. Instead, the Executive Director has 
established an environment of collaboration, cooperation, and 
coordination which has transformed the Cemetery's 
organizational climate. Surveys and sensing sessions we 
administered at Arlington over the last year reflect steadily 
improving morale and organizational effectiveness. These 
improvements can be directly attributed to the strong and 
inclusive leadership of both the Executive Director and 
Superintendent.
    With regard to automated systems and processes, ANC now 
possesses a fully functional information technology 
architecture supported by the Army's Information Technology 
Agency (ITA). ANC has partnered with ITA to employ a 
consolidated customer service center in answering customer 
calls, which have significantly improved customer service and 
enabled a tiered response capability, using a Remedy tracking 
system which allows collaborative resolution by call center 
personnel and Cemetery representatives. ANC and the Veterans 
Administration are now partnering to integrate the Cemetery's 
interment scheduling services system and the VA burial 
operations support system.
    Additionally, ANC has partnered with other Army 
stakeholders to create a digital research tool for digital 
burial records, Cemetery maps, and headstone photographs, which 
is enabling the Executive Director's Grave Site Accountability 
Task Force.
    Last, with regard to information assurance, today I can 
report to you that Arlington National Cemetery's information 
assurance is among the best in the Army.
    In contracting, during the 2010 IG inspection, we found 
that the Cemetery's procurement and contracting actions were 
not compliant with Army, Defense, or Federal acquisition 
regulations. This summer we reviewed over 20 contracts covering 
services, engineering, and construction. We found that these 
contracts are now properly aligned based on scope of work and 
the correct contracting agency, that these agencies are 
providing the oversight necessary to ensure that quality 
contracts are properly awarded, and that ANC is effectively 
monitoring those contracts.
    In the budget arena, ANC now uses Army standard financial 
management processes and works closely with the administrative 
assistant to improve the development, execution, and oversight 
of the program and budget. Further, the Executive Director's 
decision to transition Arlington early to the General Fund 
Enterprise Business System now provides full visibility on the 
Cemetery's expenditures and has been critical to reversing 
perceived budget shortfalls.
    Our key recommendations in this year's report were 
presented to the Secretary, and, as you have stated, there were 
53 recommendations which we believe will further enhance the 
progress already made.
    In the areas of policy documentation, we recommended the 
Executive Director continue to revise the regulations and 
pamphlets to improve administration, operations, and 
maintenance of the Army's 30 cemeteries and incorporate in it 
the revision's long-term, robust, and continuous oversight 
processes and mechanisms.
    We also recommended a multiservice policy for Arlington in 
order to standardize policies and improve efficiencies and 
response.
    To ensure long-term command and control and oversight, we 
recommended the Department of the Army G3 provide Secretary 
McHugh future options on how best to integrate the Army 
National Cemetery command and control organizational alignment 
and support relationships into established Army practices.
    Regarding wait times, during our inspection we found that 
interments and inurnments are increasing each year and that 
wait times at Arlington continue to increase. We recommended 
that the Secretary request his soon-to-be-formed Army National 
Cemeteries Commission to examine the cause and effect of that 
and make recommendations.
    In conclusion, I believe the progress made at Arlington 
since last June shows a significant turnaround in performance, 
and demonstrates the Army's stalwart commitment to ensuring all 
actions at this national shrine are executed to exacting 
standards.
    There is still more work to do. As the Army's Inspector 
General, I know that restoring Arlington remains a high 
priority for both the Secretary and the Chief of Staff of the 
Army. Further, as the son of a mother and father who are buried 
at Arlington National Cemetery, I have a personal interest in 
ensuring that the Cemetery is properly managed.
    I can tell you without hesitation, I have great confidence 
that the Army is now and will continue to effectively perform 
its sacred responsibilities to its veterans and their families 
at Arlington National Cemetery.
    Thank you, once again, for the invitation and the 
opportunity to testify today on this most important subject.
    [The prepared statement of General McCoy appears on p. 23.]
    Mr. Runyan. Thank you very much, General.
    With that, we will start a round of questions, starting 
with myself, and alternating on either side of the aisle.
    First question as a preface, you kind of touched on it in 
your statement, just talking about recommendations that the IG 
has set out, and basically alluded to that the focus of this 
administration, is probably too short term, and there is a 
worry about how you are going to be able to sustain improvement 
as people like Ms. Condon and Pat move on.
    Is that a natural part of changing personnel within any 
Administration, or is it something that going forward you are 
really fearful that they are not prepared in case something did 
happen where experienced managers were no longer around to 
continue improvements?
    General McCoy. Congressman, I think we have to recognize 
that we had a significant problem at Arlington National 
Cemetery, and what Secretary McHugh did was, he applied focused 
effort to fix it. It was contrary to what we had in our initial 
report last year, but he believed, with the advice of his 
staff, that this was a better approach, to put an Executive 
Director in charge, focus solely on making corrections happen 
as quickly as possible. And from our perspective, that was a 
short-term fix.
    He believes that he has to figure out a way to sustain this 
effort. Right now, he has a quality workforce out there, 
quality leadership out there, performing both the corrections 
and the day-to-day mission and the long-term vision. But in the 
long term, he has to figure out how to apply our command and 
control in an appropriate way out there, and I think he is 
looking forward to the recommendations both from Ms. Condon and 
also from the G3 on that.
    Mr. Runyan. Thank you. And you touched a little bit on the 
increased use of technology. What role do you see the use of 
technology in moving forward, specifically in the area of 
policy documentation?
    General McCoy. Well, for example, a year ago I could not 
have told you what was happening at Arlington National Cemetery 
on any given day. This morning, while we are sitting here, I 
can tell you that they are burying 10 veterans or family 
members and that they plan to do 34 burials today, and that is 
on their Web site, and it is in the public domain. So they are 
taking the 21st Century look at the Cemetery right now.
    They have applied the resources, I think, that they have 
been given, effectively. They have the Information Technology 
Agency helping them. They are working with a call center to 
make sure that they are capturing all of the calls that come 
in. They weren't even doing that last year, and we didn't know 
how bad it was until we started being able to capture some of 
the calls.
    And then on top of that, I think Ms. Condon has been given 
the mission of formulating operations, administration, and 
maintenance policy for all of our 30-some cemeteries. So she 
will be able to apply that through the technology processes as 
she is putting them in place now.
    Mr. Runyan. And also in the report, there was a finding 
that communications between the interment branch and the Honor 
Guards needed refinement. Can you kind of clarify that a little 
bit?
    General McCoy. Well, I think what we found was with five 
services, each with their own Honor Guard, their ceremonial 
units, and their own bands, each with conflicting additional 
service-related priorities and no common policy, that sometimes 
it was hard to schedule services in a timely way, and we have 
seen that in some of the services. We saw an increase in time. 
Army and the Marine Corps I think were the best; and then the 
other two, they had an extended time.
    What Ms. Condon did about it initially, I mean she started 
the open coordination with each of the services' capabilities. 
And then beyond that, what she did is she is set up an 
operations center that she expects to have service 
representation, and that will help significantly, we believe.
    But in the long term we think, and we have recommended to 
the Secretary, that a multiservice policy be established for 
common standards and ceremonial practices there so that we can 
ensure we are more responsive to the needs of the relatives.
    Mr. Runyan. Thank you. That is all I have. Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman. Major General McCoy, 
thank you for appearing today.
    What role did the IG play in exposing some of the problems 
that we are hearing about or we heard about last year, and why 
did the IG not find these problems in prior years? They must 
have been building up over a long period of time.
    General McCoy. That is a long story, Congressman, but I 
will try to give you the CliffNotes version. There was a 
general order that was published in the early nineties, shortly 
after the previous administration got in place, and that 
general order basically vested most authority for the 
administration of the Cemetery into the Superintendent. The IG 
of the Military District of Washington (MDW) had a relationship 
initially with the Cemetery, but that was a collaborative 
relationship between the Military District of Washington 
commander and the Superintendent. Over time, that eroded.
    We perform systemic inspections at the Department of the 
Army Inspector General Agency based on the Secretary of the 
Army's guidance, and our inspections had been focused outward, 
looking at systems issues across the Army, given the deployed 
environment we are in today. So things like supply, readiness, 
leader development, those kinds of things.
    When we got word in 2009 that there were some issues that 
we were beginning to see at Arlington National Cemetery, we 
recommended to the Secretary that we perform an inspection 
there to look at policies and oversight and management of the 
Cemetery, and as we started that inspection, we identified some 
mismanagement that required investigation. So our Inspector 
General investigators began to look at those, and then we saw 
the contracting and IT, the information technology, was in bad 
shape. So we added those additional items to the inspection. 
That culminated in 2010 with a report, as you recall.
    What we have done since then is we have ensured that, and 
frankly, Public Law 111-339 helps, but it was already 
anticipated that we were going to perform an oversight 
inspection for the following years; and at the same time, we 
are looking at other agencies that are helping with the 
oversight. And Ms. Condon is looking internally at her 
assessment capabilities as well. So I think it is going to be a 
combined effort, ensuring that oversight remains strong in this 
Cemetery over the years.
    Mr. McNerney. So it sounds to me like that before 2009, the 
DoD had some significant commitments and the Arlington 
management was a little bit below the radar, and as problems 
arose, it came into focus, and now you have put into place 
procedures that will prevent this from happening again; is that 
correct?
    General McCoy. That is a fair statement.
    Mr. McNerney. So I guess what I want to find out and be 
comforted with is knowing that Arlington won't be flying below 
the radar in the future--that there will be enough attention 
because of the management structure that has been put in place 
and that we won't be seeing that problem again?
    General McCoy. I think you should be comfortable with that 
at this point.
    Mr. McNerney. Well, thank you. I am glad to hear that. One 
of the things that is the most difficult to hear about is the 
sort of treatment that families have gotten when they want to 
inter or bury one of their loved ones: an 80 percent 
dissatisfaction rate with the telephone hotline and and long 
wait times.
    Has someone from your office tried to call into the system 
lately to find out if that telephone response is what it should 
be?
    General McCoy. Well, as you know, there was no real system 
before 2010. I mean, what they had is a couple of Cemetery 
representatives that were answering the phones, and if they 
didn't get to the phone, the person got dropped. So immediately 
after Ms. Condon took charge out there, she established a call 
center, initially in the basement, and now she is working with 
the Information Technology Agency with a call center that 
answers all of the calls that come in and distributes the calls 
based on whether it is about a tourism issue or a burial issue, 
and the burial issues are referred to her scheduling branch.
    What we found also is that that captures the discrepancies 
or the potential discrepancies that family members may have 
concerns about, and so they call. And at the time the 
inspection ended, there was about 1,300 calls over the last 
year inquiring about the potential discrepancies. Now, the vast 
majority of those, there were no discrepancies and they were 
able to be corrected in reviewing of the paperwork. But what we 
found, as we checked both the call center and the Cemetery 
representatives is that they approached each one very 
deliberately and professionally and compassionately in order to 
support the needs of the family member. In some cases, they 
actually did check the body physically to ensure that it was 
the proper grave site, the proper casket, the proper place, and 
in all--in most of those cases, the family members were 
satisfied with what they had done.
    Mr. McNerney. Okay. Thank you, Major General. I am going to 
yield back.
    Mr. Runyan. Thank you. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, and thank you for 
having this hearing. And General, thank you for your service to 
our country, and thank you for addressing these important 
issues.
    When these problems came to the surface last year, many 
Americans were very concerned, and understandably so. In 
addressing the concerns, I don't want to overlook the many good 
things that were done out at Arlington National Cemetery both 
in the past and in the present and leading up till now. Many 
people were treated with the utmost dignity and respect as they 
were put into their final resting place. So thank you for the 
good things that were also done during this whole time.
    But in addressing the issues that were of concern to 
everybody, can this Committee do anything to better support you 
and Ms. Condon and her team out at Arlington National Cemetery 
as we go forward?
    General McCoy. I would offer to you, if you haven't been 
there, take yourself and as many of your staff members and 
Committee Members with you to go out and visit the Cemetery. I 
mean, it is a hallowed site. My wife and I walk through it 
every weekend. I know that Ms. Condon walks through it multiple 
times a day, but it will bring you back to reality.
    Speaking with Ms. Condon and her staff and watching Mr. 
Hallinan and what he does to train and develop the junior 
leaders that are out there and getting an update from them--not 
from the Inspector General or the Director--about what they 
feel to be changed out there, I think would be very useful to 
you. So that from that perspective, I commend a visit out to 
the Cemetery.
    Mr. Lamborn. Okay. Thank you for that, and do know that we 
stand by to lend any assistance that should be necessary.
    And secondly, with the increase in burial services, are you 
able to ensure that each family's wishes are met during the 
service?
    General McCoy. I will let Ms. Condon answer part of that, 
but frankly, the belief I have is that now that they have this 
call center in place and they are actually able to capture the 
calls and the demand, the good side of that is they are meeting 
the requirements of the family members. The bad news to that is 
they are seeing an increase in their demand because they now 
know how many people actually want to be buried there, because 
that is problematic because it means that they are now 
capturing that demand. They get about 43 calls a day. They are 
able to bury about 27 to 30. Today, they plan for 34. So their 
demand exceeds their capacity.
    Mr. Lamborn. Okay. And the last question is, specifically, 
there was an issue that came out at the last hearing--and I 
know that Ms. Condon may also want to address this--but there 
were 69 boxes that were found of records in a storage facility. 
And have those records been compiled and examined and disposed 
of in the proper way?
    General McCoy. Congressman, that was not part of the IG's 
finding and I will let Ms. Condon address that. I do know that 
has been turned over to Criminal Investigation Division for 
review.
    [The DoD, on behalf of Ms. Condon, subsequently responded 
with the following information:]

          On 9 June 2011, Arlington National Cemetery (ANC) was 
        contacted by the Property Manager, Fort Knox Self Storage, 
        Falls Church, VA, who discovered 69 boxes with what appeared to 
        be ANC documents in a storage unit that was currently up for 
        auction due to the tenant failing to pay the rent. After an 
        initial investigation by U.S. Army Criminal Investigation 
        Command, the documents were returned to ANC and ANC personnel 
        conducted a thorough review of all documents recovered and 
        determined them to be printed copies of previously scanned 
        records of interment and grave cards currently maintained in 
        the ANC data archives. ANC reported the potential loss of 
        Personal Identifiable Information, as required by Department of 
        the Army policy. The Army determined that the tenant of the 
        storage unit who failed to pay rent was an information 
        technology contractor and the contractor was the only one who 
        had access to the interment records stored there. This 
        contractor had access to the interment records for the purpose 
        of database development under an ANC contract. All current 
        scanning contracts include requirements for records security 
        and disposal of residual information to protect personal 
        identifiable information in accordance with Army regulations.

    Mr. Lamborn. Okay. I appreciate your answers, General, and 
Mr. Chairman, I yield back.
    Mr. Runyan. Thank you, Mr. Lamborn. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman and Ranking Member. 
General McCoy, thank you and the IG for the fine work you do. I 
think every bit of praise to Ms. Condon and Superintendent 
Hallinan are well deserved. I also wish more of our colleagues 
could maybe see this.
    I would like to think one of our primary responsibilities 
of oversight as Members of Congress, the system worked. The IG 
was able to report things that came to Congress, took an active 
role. The Chairman and the Ranking Member addressed the issues 
for the right ways, both from the Federal side of things and 
from the private contractors, and now we have a system that is 
doing what it is supposed to do for those families. So that is 
a good thing, and I think the public doesn't get enough good 
news like that.
    I just had just a couple things. How often will you review 
Arlington now from an IG perspective? Do you go back to a 
normal set schedule, General, or will there be a little 
difference in how you go about making sure this level of 
service is maintained?
    General McCoy. Ms. Condon may want to tell you, too much. 
But I will tell you this. Last year, we were out there almost 
continuously. After the inspection and investigation started in 
2009, we finished that in 2010. We did an interim review in--we 
had already planned an interim review in 2010 in the December-
January time frame, December and January 2011, and then Public 
Law 111-339 came out that required inspections over the next 3 
years. So we did an interim review in December. We had already 
planned a summer 2011 inspection, a reinspection. Now we are 
going to do one again next summer, and next summer we will work 
with Ms. Condon to ensure that we are not only looking at what 
remains to be done, but that she is sustaining the work that is 
required. And then we are required by that law to do one in 
2013.
    But our intent is to have, as Secretary McHugh has 
discovered, a look at all of these direct report units that 
report to the Army staff, that we may not have been as good at 
looking at in the past to make sure we have a sustained program 
for looking at each of those over the years. So that is part of 
our program.
    Mr. Walz. Great. This was addressed a little bit by the 
Ranking Member, and I am interested in this because I know what 
the systems analysis--the forensic lookback and the gap 
analysis that you did to find out what we could do better. 
Those systems, are they durable enough to withstand when Ms. 
Condon and Mr. Hallinan move to something bigger and better--
not entirely--when they move, can the system sustain itself 
without that direct leadership?
    General McCoy. I think the answer to that is yes. What I 
would say is that what Mr. Hallinan and Ms. Condon are doing is 
they are establishing core competencies out there and core 
capabilities, and then they are defining those and they are 
defining those in writing over time. So there will be a 
standard operating procedure (SOP), an Army pamphlet, and an 
Army regulation that describe precisely how Arlington National 
Cemetery and the other Army cemeteries should operate, and that 
will be a useful document.
    Now, it comes down to leadership. The thing that changed 
Arlington is the climate, the environment, and the inclusive 
leadership that has been established out there. So you have to 
have the right leaders in place.
    Mr. Walz. And my final question--you may be the wrong 
person to, but I am going to articulate it because it has to 
every time we have this discussion--should we be looking at 
folding Arlington into the VA system so that we have that 
established overall check, and roll them together with the Old 
Guard providing the interments and bringing it under one?
    I know this gets brought up every time. In this time of 
budgets and these types of issues where you had an entity 
outside an established protocol of the VA, is that something 
that the IG look at from a cost-benefit analysis or systems to 
roll them into VA?
    General McCoy. I know a lot of people are looking at that. 
I know GAO will come back to you in December and provide you a 
recommendation in accordance with the public law. As a soldier, 
I would tell you--and a veteran--I would say I would like to 
see Arlington stay with the Army. We bring soldiers in. We take 
care of them their entire career, and they are ours to retire 
properly.
    As an IG, I would tell you, I think you are going to have 
increased bureaucratic ineffectiveness if you bring in the 
Veterans Administration and try to work it with Arlington and 
the Army using the Old Guard. So I do think there will be some 
increased ineffectiveness if you do that.
    Mr. Walz. I appreciate that candid response. I yield back, 
Mr. Chairman.
    Mr. Runyan. Thank you, Mr. Walz. Mr. Stutzman.
    Mr. Stutzman. Thank you, Mr. Chairman, and thank you, Major 
General McCoy, for being here. And we appreciate your service, 
first of all, and also your work out at Arlington Cemetery. I 
know for all of us as Americans and I can, speaking for myself, 
remember as a young boy walking through for the first time at 
Arlington and just the impression it left on me. I know we are 
all very, very proud of Arlington National Cemetery, and we 
want to be supportive, and we want it to be something we can 
all be proud of.
    My question, to kind of follow up on Mr. Walz's last 
question regarding VA and the Army operating the Cemetery, the 
original VA IG inspection recommended that Arlington National 
Cemetery negotiate a Memorandum of Understanding (MOU) with the 
Department of VA to include Arlington National Cemetery in 
their National Cemeteries Administration's operations, 
assessment, and inspection program.
    While multiple reviews and inspections have occurred, why 
has Arlington ignored this recommendation, given the value of 
outside inspectors who are recognized as experts in this field, 
in providing an independent assessment of operations and 
management?
    General McCoy. Well, Congressman, I think that is fair. The 
Secretary--well, that was our recommendation. The Secretary 
took us in a different direction when he assigned 
responsibility for the Cemetery to the Executive Director. One 
of the first things she did is hire away from the Veterans 
Administration the architect of their assessment program, Mr. 
Hallinan, and so he is now working for us, number one.
    Number two, they have trained a number of their people. 
Even while we have all of these different assessments going on 
from the Army, they have sent a lot of their folks to the 
Veterans Administration training facility, in Jefferson 
Barracks in Missouri, to receive Veterans Administration 
cemetery training.
    And even now, Mr. Hallinan is also preparing an assessment 
program, which we would call in the Army an organizational 
inspection program. He is preparing that assessment program for 
Arlington National Cemetery and is training his people with the 
Veterans Administration. They have not done an MOU, but they 
are working--they are partnering together.
    Mr. Stutzman. Okay. And kind of a follow-up on another 
recommendation that the commission, when formed, should examine 
the causes and effects of increasing wait times and recommend 
changes to DoD, Army, and Army National Cemetery program 
processes and procedures to reduce wait times appropriately. 
Why is it appropriate for this Department's advisory--this 
Department of the Army's advisory body to make recommendations 
to a problem whose solution obviously rests on a joint Office 
of the Secretary of Defense (OSD) and military service 
collaborative integrated effort?
    General McCoy. I think the short answer is yes. At the 
organizational level, Ms. Condon and Arlington Cemetery and 
internal to the Army, and even OSD, we can find answers to 
initial questions that are evolving out there at Arlington 
National Cemetery. But at the strategic level, as you think 
about the transparency that you would want us to have with you 
on this sacred ground, we thought that the advisory 
commission--the Secretary thought having an advisory commission 
that could provide him unbiased advice on how to best operate 
the Cemetery would be useful and transparent.
    And so while some of these questions can be answered, such 
as wait time and things and throughput and all those kinds of 
things, at the end of the day, having an external body review 
the situation and provide us some options and some 
recommendations to the Secretary I think is useful.
    Mr. Stutzman. Do you think that there will be any delay in 
a solution being found while the Army looks at it?
    General McCoy. I think we are going to have--I think I know 
Ms. Condon. She is going to figure it out herself initially and 
commence work, but it will be reinforced by what the commission 
provides back to her and maybe altered some by what the 
commission provides back.
    Mr. Stutzman. Okay. Thank you again, for your service and 
appreciate what you do. I know we all want to see it be 
something we can continue to be proud of, and I know we will be 
with some work--working together. Thank you, Mr. Chairman. I 
yield back.
    Mr. Runyan. Thank you.
    Major General McCoy, on behalf of the Subcommittee, I want 
to thank you for your testimony. Thank you for your service to 
this country. I look forward to working with you and continue 
working with you on these important matters as we get this 
right. So you are now excused and we will have panel 2 please 
come forward and have a seat at the table.
    General McCoy. Thank you, Mr. Congressman. With your 
permission, I am going to go ahead and leave. If you want me to 
stay----
    Mr. Runyan. I apologize for having a vote across the 
street, but I know you are probably crunched for time.
    General McCoy. I am willing to stay if you want me to.
    Mr. Runyan. You can leave. Thank you.
    On the second panel of this hearing, we will be hearing 
from Ms. Condon, the Executive Director of National Cemeteries 
Program for the Department of the Army, who is accompanied by 
Patrick Hallinan, Superintendent of Arlington National 
Cemetery. Ms. Condon, your complete written statement will be 
entered into the hearing record, and you are now recognized for 
your statement.

 STATEMENT OF KATHRYN A. CONDON, EXECUTIVE DIRECTOR, NATIONAL 
   CEMETERIES PROGRAM, OFFICE OF THE SECRETARY OF THE ARMY, 
DEPARTMENT OF THE ARMY, U.S. DEPARTMENT OF DEFENSE; ACCOMPANIED 
  BY PATRICK K. HALLINAN, SUPERINTENDENT, ARLINGTON NATIONAL 
CEMETERY, OFFICE OF THE SECRETARY OF THE ARMY, U.S. DEPARTMENT 
                           OF DEFENSE

    Ms. Condon. Mr. Chairman and distinguished Members of the 
Committee, thank you once again for providing the opportunity 
for Mr. Hallinan and I to discuss the progress at Arlington. As 
most of the Members of this Committee know from previous 
hearings and also from visits to the cemetery, over the last 15 
months Mr. Hallinan and I and the entire workforce have worked 
diligently to right the wrongs of the past at Arlington 
National Cemetery. As you just heard from the Inspector 
General, significant progress has been made in all aspects of 
the Cemetery's performance, accountability, and modernization.
    Mr. Hallinan and I now lead a dedicated group of 
individuals who are committed to honoring our fallen military 
heroes and their family members. As you know, at the start, we 
encountered a workforce where skills were misaligned with 
organizational needs. Training was inadequate to allow them to 
properly and effectively perform their assigned duties, and 
equipment was outdated or did not exist to perform the mission 
to standard. To that end, we focused our attention on 
reorganizing and training the workforce and addressing all of 
the discrepancies in the 2010 IG report.
    We have put in place standards that previously were lacking 
or were inadequate. New equipment has been introduced, as well 
as training with industry on how to operate it safely and with 
proficiency. As you have seen just a year ago, Arlington was 
using an outdated method to schedule burial services. Yes, we 
were using a typewriter to record critical information about 
veterans' gravesites and interment details. Today, we leverage 
industry best practices in database management, and we have 
installed a state-of-the-art scheduling system that ensures 
visibility to all our stakeholders and ability to share 
information like never before.
    Now, accountability is maintained using a six-step chain of 
custody process. We have stood up the Accountability Task 
Force, a joint military and civilian team focused to meet and 
exceed the requirements first directed by Secretary McHugh, and 
later by the Public Law 111-339.
    But the most significant change to the Cemetery has been 
the effective use of technology, from our new Arlington Web 
site to our Geospatial Application Development Initiative, 
which will form a Google maps-like information system that 
enables the Cemetery to better manage the grounds, grave and 
niche assignments, and provide street direction and site 
locations for our guests, to the implementation of the Army's 
General Fund Enterprise Business System, which provides Web-
enabled financial asset and accounting management. We did not 
have that before.
    Mr. Chairman, we have worked diligently to earn and 
maintain the faith of our veterans and their loved ones. The 
demands have been significant, but Mr. Hallinan and I will both 
tell you that we still have some challenges that we need to 
work. But as outlined in the IG report, both reform and 
progress have been implemented at Arlington.
    Conducting military burial services with dignity, honor, 
and precision has been part of the fabric of Arlington National 
Cemetery since the Army's first burial more than 150 years ago. 
Each day, the Army along with the Navy, the Air Force, the 
Marines, and the Coast Guard, carry out this tradition, 
participating on an average of 27 funeral services each day.
    To date this calendar year, we have conducted 5,358 
burials, 3,216 ceremonies, and we have hosted over 4 million 
visitors and guests and reviewed over 1,300 family member 
concerns. I would like to say that no other cemetery in the 
United States has such a diverse mission or such a diverse 
role.
    In summary, during the last 15 months, from information 
technology and manpower efforts to grave-site accountability 
and comprehensive inspections and audits, the Army has used 
virtually every asset in its inventory to improve management, 
operations and processes at Arlington.
    Thank you for allowing Mr. Hallinan and I to answer some 
questions today and to highlight the improvements that we have 
made, and we look forward to answering your questions.
    [The prepared statement of Ms. Condon appears on p. 30.]
    Mr. Runyan. Thank you for your testimony. In the IG report, 
referring to developing your call center to address the self-
assessment performance, it couldn't identify any other way that 
you would obtain any measurable metrics. Have you done anything 
to address their concern on that issue?
    Ms. Condon. Sir, yes, we have; but you know, Mr. Hallinan 
will also expound on this because I will get his comments as 
well.
    The first thing we did at the Cemetery was we had to 
rebuild the workforce. We literally redid each and every 
position description. We had to train the workforce, put in 
standards and operating procedures, and so now we are 
implementing those standards and operating procedures. And from 
them, you know, we will work the metrics to make sure that the 
workforce is truly doing what they need to do on a day-to-day 
basis.
    Is there anything you want to add on that, Mr. Hallinan?
    Mr. Hallinan. Mr. Chairman, I will just add in a very 
strategic sense that we use the term three Rs, and in fact, one 
of your colleagues mentioned it. It is to reorganize, retrain, 
and retool. That is exactly the process that has been employed. 
It is easily understand by the rank-and-file workforce. It is 
not an easy task to accomplish, especially in a short time 
frame.
    But specifically to your question, you know, when we stood 
up the call center, we actually captured the amount of calls 
coming in. Each family that called in was assigned a case 
number with Remedy. Each family will get a returned phone call. 
Calls are not being dropped. Phones are not being abandoned. So 
now we have a metrics. We have a systems approach. We have 
accountability. So we established a baseline, and how we could 
try to impact that system even further and improve that process 
which did not exist 14 months ago.
    Mr. Runyan. Kind of leading into that you mentioned in your 
statement your 1,300 inquiries. Have they all been addressed, 
and what are the major issues with the ones that are 
outstanding?
    Ms. Condon. Sir, as reported in the IG report, you know, we 
have addressed most of those 1,300, and I think the number in 
the report was there were 18 that we were still working on. I 
am here to report that there are only 13 left that we are still 
working on. Nine of those 13, we are working with the families 
to--you know, with their concerns with the Cemetery, and 4 of 
those 13 we are turning over to our Accountability Task Force.
    The reason why we are turning them over to our 
Accountability Task Force, it is--to give you one example. An 
individual came in and said he thinks his father is buried at 
Arlington. Well, when we checked our records and we checked the 
national grave site locator record, you know, we do not find 
his father; but as we do the Accountability Task Force looking 
at each and every record at the Cemetery perhaps we will be 
able to discover something. That is just one of the examples, 
but we are working on that, very limited number left, and every 
other inquiry that we receive from a family member to date.
    Mr. Runyan. And I know we kind of touched on this a little 
bit when you were in front of the Oversight Committee on Armed 
Services a couple of weeks ago; but the switch of the Army 
Corps' oversight and their engineering from the Baltimore 
District to the Norfolk District, why again did that happen?
    Ms. Condon. Sir, as you know, when Mr. Hallinan and I 
received the IG report in 2010, the status quo on any operation 
at Arlington was not acceptable. That was the reason why we 
relooked each and every requirement at the Cemetery from all of 
our service contracts to include all of those construction 
projects that we had. The reason why: We wanted a fresh look, 
and transferring to the Norfolk District from Baltimore allowed 
us to have that fresh look and not to be wedded on everything 
that happened in the past, but only to look forward.
    Mr. Runyan. And in dealing with burial service today, 
interment delays--and again, I know with your call center you 
realized how much need there actually is: Are you operating at 
optimal capacity right there, or is there room to speed this up 
and help this along? Because I know it came up in other 
Subcommittees that there are a lot of people frustrated because 
it actually costs the families money to sit around and wait for 
the burial.
    Ms. Condon. Sir, I will also let Mr. Hallinan, you know, 
expound on the fact as well, but one of the things that we have 
done to address that issue is we now have Saturday services. 
Our Saturday services are for family members and for those who 
do not require honors or want honors. So that has allowed us to 
work on some of the backlog for placement only in the Cemetery. 
One of the things that we do track on a daily basis is, you 
know, scheduling those services. And we have found that 
families are willing to wait just for the honor to be buried at 
Arlington National Cemetery. Mr. Hallinan.
    Mr. Hallinan. Mr. Chairman, as Ms. Condon mentioned, we are 
interring 6 days a week. We are the only national cemetery in 
the United States that operates 6 days a week. That was a good-
faith effort on our part to improve service to the families and 
possibly reduce any cost they may incur. But with the 
technology that is in place now, I believe there is still 
opportunity for improvement, I think with coordination with the 
military services, with the support of our commanding general 
of MDW, we are looking for further opportunities during the 
week that we can increase services. But I do want to mention, 
we have increased expectations.
    So I can see the more efficient we become, the need for 
interments may rise. So we have seen it with the phone calls. I 
believe that is what is happening with the interments. Even 
though we are interring 6 days a week, more people want to be 
interred at Arlington National Cemetery, which I take as a sign 
of confidence and trust of the American people that interments 
are up.
    One cautionary note. In our efforts to be efficient, the 
Cemetery is operating in a small sector, and as you have been 
out there yourself, Mr. Chairman, most of our activities are 
located in a small quadrant. We have to be real careful in our 
efforts to improve service that we don't impact the services of 
those that are already scheduled, so when each family has that 
service, there is not activity and another service going on 
nearby that in any way would impact that in a negative way.
    We have increased--our goal right now is 30 interments. We 
are averaging 27. Today's is 34. We like to be consistent with 
30 interments to better serve the American people. But we are 
also conscious that when we serve them, we don't impact them in 
a negative way. So it is a strategic issue right now for us and 
a logistics issue.
    Mr. Runyan. And understood, too, and as our--specifically 
our Korean and Vietnam veterans age, there is going to be a 
higher demand there. So that is kind of where I wanted to get 
to; what is your capacity, and are you going to be able to 
handle that? But thanks for what you said.
    [The DoD subsequently responded with the following 
information:]

          An important point to consider is that all Korean and Vietnam 
        veterans may not be eligible for in-ground interment at 
        Arlington National Cemetery (ANC). Current estimates show the 
        cemetery will exhaust its availability for in-ground burial in 
        approximately 2025 and above-ground inurnments in approximately 
        FY 2016. ANC is moving forward with expanding above-ground 
        burial capacity with the addition of Columbarium Court 9. This 
        construction will add approximately 20,000 niches to the 
        inventory, which will extend niche space burials to 
        approximately FY 2024, given the current rate of inurnments. 
        Additionally, the Master Planning effort is evaluating options 
        for further expansion in the Millennium Project, the land 
        adjacent to Joint Base Myer-Henderson Hall, which will extend 
        in-ground burial to approximately FY 2035. Also, the Navy Annex 
        will provide for additional above- and below-ground burial 
        capacity. Every effort is being made to extend the life of 
        active burials at ANC for future generations of eligible 
        veterans and their loved ones.

    Mr. Runyan. And with that, Mr. McNerney, you are now 
recognized.
    Mr. McNerney. Thank you. Well, first of all, I want to 
thank the witnesses for their hard work and congratulate you 
for how much you have accomplished in the last year. It is 
pretty clear from the testimony and from the evidence that you 
have come a long way, and I certainly appreciate that. Everyone 
on the Committee and every American who has a relative in the 
service appreciates that.
    What would be the waiting time for a family that wanted 
that wanted to have their loved one interred there at ANC?
    Ms. Condon. Sir, it depends on the services that the family 
members want to have. Because if you want to use the chapel at 
Fort Myer, the caisson and a chaplain, you know, those factors, 
and what military service is providing the honors is, as Mr. 
Hallinan discussed before, that is part of the orchestration 
that we have to do on a daily basis. But you know, one of the 
goals that Mr. Hallinan and I both have, now that we have 
metrics, is to--you know, working with all the services to 
decrease the wait time for a family member to have their loved 
one buried at the Cemetery.
    Mr. Hallinan, if you want to add.
    Mr. Hallinan. As Ms. Condon has stated, there are a lot of 
factors at work here. The question came up previously, are you 
meeting the family's wishes and the family's needs? And that 
drives this process. That causes part of the delay for an 
interment. If a family does want full military honors, they 
have earned it, they deserve it, they are willing to wait, that 
will impact the wait time. We are sensitive to it. We have the 
baseline. We have the number. I know how many days it has taken 
for the average family to be interred at Arlington to date. We 
want to reduce that time frame, but at the same time meet the 
needs of the families. If they are willing to wait, if that 
family member, that loved one----
    Mr. McNerney. What is the longest a family would have to 
wait?
    Mr. Hallinan. I want to say about 74 days, Mr. Congressman. 
Right now, that is the current average with full military 
honors and use of the Old Post Chapel.
    Mr. McNerney. And you have quite a bit of flexibility in 
terms of what the family wants? Say, if they want a motorcycle 
escort, is that allowed? And they get a bugler, and those 
things? Those are always available if that is what the family 
wants; is that right?
    Mr. Hallinan. We work very hard to comply with families' 
wishes, at the same time, being mindful of the dignity and 
decorum of Arlington National Cemetery; but yes, we do.
    Mr. McNerney. Well, one of the things that has come up in 
questioning here is that we want to be assured that reforms 
that you put in place are going to outlive your tenure with the 
organization. Now, one of the ways to do that is to make sure 
that there are good regulations or good procedures that are 
documented.
    Can you talk a little bit about what documents are 
available now and how well those might be followed by the 
current staff. And procedures are going to need to be updated. 
What are in place to make sure the procedures are updated as 
new technology becomes available?
    Ms. Condon. Sir, I will start with that one. First of all, 
I have been given the direction to update all of our Army 
regulations and policies, and also working with the Department 
of Defense, so that we do it across all services as well. Mr. 
Hallinan and I have focused on putting in the--and documenting 
the standard operating procedures. And one of the things that I 
think we are the most proud of is we are truly digitizing the 
Cemetery. Our long-range plan is to eliminate paper and to do 
everything, you know, with electronic means to include--that 
will allow us to update our regulations and our policies, et 
cetera, you know, just really at real-time. So that is one of 
the things that we have been focused on.
    Mr. McNerney. So your employees there are familiar with the 
procedures and the regulations requirements and they have some 
input if there is a little flaw? I want to make sure that those 
procedures are a living force that gives guidance to your 
employees.
    Ms. Condon. Sir, you know, our employees are the ones who 
are assisting us as we write our standard operating procedures, 
and I will let Mr. Hallinan expound on this because it falls on 
the operational side. But just to give an example, our 
Columbarium worker literally sat down on her time and wrote 
down the procedures for what she does, you know, at the 
Columbarium Courts at Arlington. So there is involvement in not 
only the staff, but in the expertise that Mr. Hallinan has 
brought to the Cemetery.
    So it is a living document because, as you know, as 
technology improves, as equipment improves, we all have to make 
sure that we update all of our policies as well.
    Mr. Hallinan. Mr. Congressman, specifically to your 
question about succession planning and what is Arlington 
National Cemetery going to be when our tenure is over, Ms. 
Condon and I focused on that. There is a succession plan in 
place. Position descriptions have been written. There are 
career-ladder positions in the ISB which is the interment 
branch. There are career-ladder positions in place now that did 
not exist 15 months ago for field operations. The employees, 
the rank and file, the union, are all involved in the many 
changes that are taking place. We are communicating from bottom 
up and from the top down with the workforce.
    But in order to sustain the improvements and to ensure they 
last, you need documented policies. You need standard operating 
procedures. We have written standards and measures that are in 
place. We have career development for the employees. We have 
internal training, external training. We have partnered with 
the VA. There is a formal signed agreement between the 
Secretary of the VA and the Secretary of the Army.
    The end of this month, sir, there will be four Arlington 
National Cemetery employees who will be trained on 
organizational assessment and improvement. We have the in-house 
expertise for that at Arlington presently. We are going to 
continue to leverage and develop that capacity. So these are 
good times. These are positive reinforcements for the 
employees. Our employees have individual development plans.
    And specifically to your question about input, when we 
create the SOPs, we do it as a team. And those standard 
operating procedures, while they guide the organization and 
they can train the next generation coming in, they are not 
written in granite. Those SOPs are made to be changed by the 
people who actually do the work. So if there is a change in 
technology, we can capitalize on IT or a new piece of equipment 
or a different chemical that is applied at the Cemetery. We are 
going to look at those opportunities. We are going to look at 
best practices within the VA, and more importantly, we are 
going to look at best practices across the industry.
    So I am very positive going forward. I am very pleased with 
the efforts of the workforce to date.
    Mr. McNerney. Mr. Chairman, I have one more question if you 
will allow it?
    Mr. Runyan. Go ahead, yes.
    Mr. McNerney. I am just going to follow up on an earlier 
answer that you have a 74-day average waiting period. What is 
your goal in terms of reducing that, and when do you think you 
might meet that goal?
    Mr. Hallinan. I would like to set bench goals, short-term 
goals, and slowly decrease that number. So we are at 74 now. I 
would like to look at 65, 60, 56, slowly whittle that number 
down, at the same time as we apply our resources and expertise 
to reduce that number, being mindful of the type of service we 
are providing the families, as I stated earlier. If we 
average--if we move up to 35 interments a day, but I have four 
or five families that felt their service wasn't proper or they 
were impacted in some negative way, that is not a goal. That is 
something we want to guard against. So we are acutely aware of 
the service we are providing, how important it is.
    We only get one chance to do this. We only get one chance 
to do this right. If that service is wrong, a family member 
will always remember that. If that service is done well and the 
honors that they have earned are rendered properly and 
professionally, the family will always remember that, also. So 
it is a sensitive area.
    So I want--we don't want to appear that we are being too 
systematic or too bureaucratic in our approach, but we do want 
to reduce the wait time.
    Mr. McNerney. Thank you. Thank you for your indulgence, Mr. 
Chairman.
    Mr. Runyan. Thank you, Mr. McNerney. Mr. Walz.
    Mr. Walz. Thank you again, Mr. Chairman. As you heard, and 
I think we can't say it enough, thanks to both of you. I know 
you are busy folks, but if we can find a reason to bring you up 
here, I always feel better when you are here. It is like we are 
moving in the proper direction, and it is obvious in your tone 
and in the outcomes that you have that you understand how 
important this is and that you care deeply on each and every 
one of these veterans. And for that, I am incredibly grateful.
    I am going to ask both of you, again--it may have been 
asked. I am sorry, I had to step out for a minute. Are the 
systems resilient enough to--and I know you are both very 
humble servants, but in all honesty, when others come in, can 
they step right in, and, as you said, make this work and adapt 
the SOP to those situations and still get the quality of care?
    Ms. Condon. Congressman, absolutely. The bottom line is, 
Mr. Hallinan and I--he has already talked previously about we 
have a succession plan for each and every employee in every 
position we have, to include our own. The bottom line is we 
have focused on the long-range vision on where we want to take 
Arlington to the future, from not only expansion but for the 
time that--you know, reducing the time it takes to be, you 
know, buried at the Cemetery. So my goal and Mr. Hallinan's 
goal is to make sure that, you know, who should follow us, 
whenever that is, is that they--that the ball is not dropped 
and that they just continue the same efforts that we are doing 
today.
    Mr. Walz. Super. And maybe you can help me with this in 
trying to understand, as all of us, obviously we are looking 
for efficiencies, we are looking for savings, but we also 
understand that services, as you said, must be done right. They 
must be done effectively. How many full-time employees does 
Arlington have now?
    Ms. Condon. Sir, when we did our manpower study, we were to 
bring our workforce up to 157 civilians. That is not counting 
our contracts. Right now, we are very close to that number. I 
think the exact number, Pat, is 100--in the 140s. It has been a 
priority for both Mr. Hallinan and I to make sure that we bring 
the right number of people so that we can make sure that each 
and every family member who has a loved one interred at 
Arlington, that we have the right amount of workforce to do 
that correctly.
    Mr. Walz. When you budget, Ms. Condon, for this and you go 
to the Army and let them know how much it is going to need for 
operation, do you feel confident that in this environment, and 
as we are trying to be as efficient as possible, though, that 
you are in an environment, if the need arises, that you can ask 
for the necessary funding to do the job? And our goal is no 
more, no less, but the job must be done. This is not one that 
can be pushed back. Do you feel confident you can do that?
    Ms. Condon. Sir, I definitely feel confident, because the 
reason we were able to accomplish so much in the last 15 months 
is because we truly leveraged the entire Army and the 
capabilities the Army provided from, you know, our ITA 
organization for all of our information technology, to actually 
the GIS (geographic information system) mapping that we are 
currently doing in the Cemetery. We just leveraged an all-ready 
Army effort. I do not feel that--and I am not shy to go forward 
and say what we truly require to run Arlington National 
Cemetery and feel that I have the support of not only Army but 
DoD.
    Mr. Walz. I am glad to hear that. The reason I asked you is 
we had the Army breakfast this morning, and General Dinaro and 
Secretary McHugh were there, and I think we all know if we end 
up in sequestration, $1.1 trillion is going to come out of 
defense budget and the Army.
    My question is, when that happens, how is Arlington 
prioritized in this, again, to make sure you have the resources 
to do what you need to do? Is that conversation, if you can--it 
is very generalized, I understand that. Is that conversation 
happening?
    Ms. Condon. Sir, as a matter of fact, I discussed this 
topic with the Chief of Staff on his first day as the new Army 
Chief of Staff, and Arlington truly is a priority and with just 
100 employees and the technology--I don't want to say this, but 
I am really not that large a dollar amount to actually run the 
Cemetery effectively and efficiently.
    Mr. Walz. That is great to hear. Again, I can't thank both 
of you enough on behalf of the American people. This is a great 
success story and done for all the right reasons, and not 
enough good things can be said about you and your people who 
are out there now. It is great turnaround. So I yield back.
    Mr. Runyan. Thank you, Mr. Walz.
    I actually have a few more questions. If you guys do, you 
can feel free to stick around. But a few weeks ago, there was a 
dedication ceremony for a new Columbarium on the books, and 
because of a protest filed over a contract award, it was 
canceled. And this Subcommittee staff actually contacted your 
Legislative Affairs Office, and you also, and did not receive a 
response on that matter. And would just like any information on 
the contract protest in question and your reason for delay.
    Ms. Condon. Congressman Runyan, as you know, the protest is 
under--is a procurement action, and I don't have any further 
details on that protest. And that is what I said to the staff 
at the time, was that once it was under protest, it is in the 
procurement channels and I do not have the details. And I would 
have to take that question for the record and get back to you.
    [The DoD subsequently provided the following information:]

          On September 12, 2011, Grunley Construction Company filed a 
        protest with the U.S. Government Accountability Office (GAO) 
        against the award of Solicitation No. W912DR-11-R-0035 
        (Contract No. W912DR-11-C-0031) to Forrester Construction 
        Company for Construction of Columbarium Court 9 at the 
        Arlington National Cemetery. The Grunley Construction Company 
        has protested not receiving award of the subject contract and 
        the Government's evaluation of their technical proposal as 
        being too low. Specific source selection information related to 
        this protest is currently under a GAO protective order. In 
        accordance with the Competition in Contracting Act, performance 
        of the contract has been stayed until resolution of the 
        protest. We expect GAO's final decision on this protest by 
        December 21, 2011, and will take appropriate action in 
        accordance with that decision.

    Mr. Runyan. Thank you. Mr. McNerney, you have any further 
questions? No, you don't? Mr. Walz?
    I would like to thank you both for coming and for your 
testimony. I commend you for the job you are doing. I say it 
time and time again. I think you get the raw end of the deal 
sometimes. You are heading in the right direction. You have 
vision and you have procedures and protocols that you are 
obviously putting in place that are really going to turn what 
happens at Arlington around, and I commend both of you for your 
dedication and all of your hard work. So thank you very much.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material. Hearing no objection, so ordered.
    I thank all the Members for their attendance today, and 
this hearing is adjourned.
    [Whereupon, at 12:59 p.m., the Subcommittee was adjourned.]







                            A P P E N D I X

                              ----------                              

   Prepared Statement of Hon. Jon Runyan, Chairman, Subcommittee on 
               Disability Assistance and Memorial Affairs
    Good morning and welcome. This oversight hearing of the 
Subcommittee on Disability Assistance and Memorial Affairs will now 
come to order.
    I would first like to thank Ms. Condon, Major General McCoy, and 
Mr. Hallinan for lending their valuable time to be here this morning to 
discuss Arlington National Cemetery with the Subcommittee.
    A couple of months ago Ms. Condon and Mr. Hallinan testified before 
this Subcommittee on the progress they have made after taking over the 
administration of Arlington following the deplorable revelations in 
last year's Army IG Report.
    We are here today to continue that discussion of the progress that 
has been made at Arlington National Cemetery and the work that 
continues to be done there.
    There are many veterans' cemeteries across this great land--each 
one of these sites is hallowed ground. Every grave marker honors the 
cherished memory of our Nation's heroes who have been laid to rest.
    Yet Arlington National Cemetery has long been a national symbol of 
these sacred memorials, while remaining unique and special in the minds 
of America's citizens.
    As I mentioned a few months ago at our previous hearing on 
Arlington, it is clear that 1 year would not be long enough to correct 
the many problems at Arlington National Cemetery and fix every issue 
brought about by years of neglect and mismanagement. I know we all 
share a sense of urgency in continuing to address the issues at ANC and 
can agree that tremendous strides have been accomplished by the new 
team at Arlington.
    Ms. Condon and Mr. Hallinan, as Chairman of the Subcommittee on 
Disability and Memorial Affairs, I want to personally commend your 
efforts in bringing about these much needed changes.
    Today, my focus, and that of this hearing, is on the process moving 
forward with the strong foundation laid by this new administration at 
Arlington National Cemetery.
    In particular, I should note this foundation includes the most 
recent Army Inspector General's report which found substantial 
corrections from the past deficiencies identified in the initial report 
that brought many of these challenges to light.
    In short, due to your diligence, hard work, and excellent 
management, the problems which plagued Arlington National Cemetery just 
1 year ago have been addressed and the majority have been eliminated.
    Moving forward, I hope to learn how this progress will be 
sustained; and your plans to strengthen the improvements already made.
    In particular, based on the I.G. report's key recommendations, I 
look forward in hearing your thoughts and plans for:

    <bullet>  the creation of a Multi-service policy for Arlington;
    <bullet>  the long term command, planning, and oversight of the 
Army National Cemeteries; and
    <bullet>  internment wait times and the cemetery lifespan in 
reaching its full capacity.

    Again, I would like to thank all of you for being here today. And 
thank you for your commitment to this great cemetery for our true 
American heroes.
    I would now call on the Ranking Member for his opening statement.

                                 <F-dash>
 Prepared Statement of Hon. Jerry McNerney, Ranking Democratic Member, 
        Disability Assistance and Memorial Affairs Subcommittee
    Thank you, Mr. Chairman.
    I would like to thank you for holding today's hearing on an Update 
on reform and Progress at Arlington National Cemetery.
    This hearing follows up on a June 23, 2011 Subcommittee hearing on 
this issue where numerous concerns were raised and discussed, 
particularly in regards to archaic paper-based record keeping, 
inappropriate contracting and management, and mistaken identities of 
gravesites at Arlington National Cemetery.
    I think we all agree that Arlington National Cemetery is an 
unparalleled national treasure that serves a very unique mission. As 
the preferred burial site for many of America's veterans and 
dignitaries, including U.S. presidents, Supreme Court justices, and 
many of those who died in the attack on September 11, 2001, these 
hallowed grounds should be maintained and operated at the highest level 
of excellence.
    Today, we will be examining the recently issued report from the 
Army Inspector General which includes 31 observations and 53 
recommendations. On September 18, 2011, the Secretary of the Army, as 
directed by P.L. 111-339, a law which outlines the required reports 
regarding Arlington National Cemetery, also issued his assessment to 
Congress of the DoD IG's recommendations and observations.
    I am glad that we will be able to evaluate the findings in the 
Secretary's report as well. More importantly, I am pleased that both 
reports indicate that the mismanagement and dysfunction found during 
the Army's original investigation in the summer of 2010 no longer 
exist. However, I know that problems of the magnitude plaguing 
Arlington in the past will not magically go away.
    As such, I look forward to hearing more from our witnesses today 
about the work that remains to ensure the proper operations, 
management, and maintenance of this revered site. I also want to delve 
further into the current reforms underway to make sure that we stay on 
the right track of increased efficiency and efficacy.
    I would like to thank our witnesses for reappearing before us 
today. I commend the dedication that Ms. Kathryn A. Condon, the 
Executive Director of the Army National Cemeteries Programs, has 
brought with her, along with Mr. Pat Hallinan, the Superintendant 
formerly with VA's National Cemetery Administration.
    Thank you both for your hard work and leadership thus far. As you 
re-organize, re-train and re-tool, I hope that you will continue in 
this vein--our veterans and their loved ones deserve no less.
    I yield back.

                                 <F-dash>
       Prepared Statement of Major General William H. McCoy, USA,
  Acting Inspector General, Department of the Army Inspector General 
               Agency (DAIG), U.S. Department of Defense
                              INTRODUCTION
    Chairman Runyan, Ranking Member Davis, and distinguished Members of 
the Committee, thank you for the invitation and opportunity to speak to 
you today about Arlington National Cemetery. I became the Deputy 
Inspector General in October 2008 and have also been serving as Acting 
The Inspector General since 13 August 2010 when LTG Whitcomb retired. 
During my time as Deputy and now Acting Inspector General, I have been 
intimately involved in all efforts concerning Arlington National 
Cemetery almost continuously since July 2009.
        DAIG'S SPECIAL INSPECTION OF ARLINGTON NATIONAL CEMETERY
    The Inspector General Agency's involvement began in July 2009 when, 
in discussion with the Assistant Secretary of the Army for Civil Works, 
it was determined that there may be some significant management issues 
at Arlington National Cemetery. The Inspector General recommended to 
and received then-Secretary Geren's approval to conduct an inspection 
of Arlington National Cemetery. The inspection assessed policy and 
procedures for operation of the Cemetery; management, administration, 
and coordination processes and training of personnel at Arlington; and 
the effectiveness, coordination, and synergy of command and leadership 
structures relating to other commands, staff elements and agencies 
involved in the Cemetery's operations.
    In November 2010, upon identification of other issues at Arlington, 
The Inspector General obtained Secretary McHugh's approval to add two 
more objectives to our inspection, one to assess information management 
systems at ANC and another to assess contracting procedures at ANC. The 
Inspector General also obtained Secretary McHugh's approval to conduct 
an IG investigation into potential issues related to hostile work 
environment, inappropriate hiring practices, and improper interment and 
trans-interment of remains. Teams of Army IGs conducted both the 
investigation and the inspection simultaneously.
    LTG Whitcomb signed the completed reports on 9 June 2010. The 
inspection report highlighted 76 deficiencies and made 101 
recommendations for corrective action. Secretary McHugh approved the 
inspection report on 8 July 2010.
                         ARMY DIRECTIVE 2010-04
    On 10 June 2010, after reviewing the IG reports, Secretary McHugh 
issued Army Directive 2010-04: ``Enhancing the Operation and Oversight 
of Army National Cemeteries.'' The directive established the Army 
National Cemeteries Program (ANCP) Executive Director position, 
reporting directly to the Secretary. In his directive, Secretary McHugh 
further tasked the Executive Director to immediately establish an 
accountability baseline for all gravesites and inurnment niches at the 
Cemetery. He further tasked agencies and organizations across the Army 
to accomplish numerous actions to support the improvement of Cemetery 
processes and procedures.
    DAIG'S 2011 RE-NSPECTION OF ANCP AND ANC: PURPOSE AND OBJECTIVES
    The 2010 DAIG report recommended, and the Secretary approved, that 
we conduct a 6-month interim review and a subsequent re-inspection of 
Arlington National Cemetery. We completed the interim review in January 
2011 and began the re-inspection in May 2011. Once Public Law 111-339 
was published, the Secretary decided that our 2011 follow-up inspection 
would form the basis of his report to your Committees. In contrast to 
our 2010 inspection of ANC, which focused on the five objectives cited 
above, the re-inspection this summer assessed how well Arlington 
National Cemetery had corrected the deficiencies from last year's 
report and how well the Army had complied with the Secretary's follow-
on directive. It also assessed outreach, information and support that 
Arlington National Cemetery provided to family member inquiries 
regarding possible burial discrepancies.
        DAIG'S 2011 RE-INSPECTION OF ANCP AND ANC: KEY FINDINGS
    Since the Secretary signed Army Directive 2010-04, the Executive 
Director has led her staff and other Army stakeholders to make 
significant improvements at Arlington, while still accomplishing the 
Cemetery's daily mission. Every day at Arlington, in addition to the 
Cemetery employees, ceremonial and band units from the Army, Navy, 
Marine Corps, Air Force, and Coast Guard operate in the cemetery to 
bury an average of 27 veterans and host seven public ceremonies. 
Additionally each day an estimated 11,000 visitors tour the Cemetery 
and seven public ceremonies were hosted. This drives home the fact that 
neither corrective action nor future visioning are negotiable and both 
are critical at Arlington, as the Services and the Cemetery executes 
the mission, with dignity, compassion and professionalism every single 
day. Neither are negotiable.
    By way of comparison, the 2010 inspection report listed 76 findings 
and made 101 recommendations. Sixty-one of those findings were 
``deficiencies''; defined as serious deviations from an Army standard 
warranting the attention of the Army's senior leadership. During this 
follow-up inspection, there were no deficiencies noted; rather, we made 
31 observations on the progress that has been made and the work still 
to be done. This alone underscores the tremendous progress ANCP and the 
Army have made in correcting the problems at Arlington.
    Improvement of ANC's Organizational Culture and Climate. We found 
that the new ANCP leadership and staff have made tremendous progress in 
addressing the Cemetery's organizational culture and climate. Last year 
we found that the Cemetery's previous leadership fostered an 
``insular'' environment at the Cemetery; effectively disengaged from 
much of the institutional Army. This insularity prevented the 
sustainment of functional relationships with Army command and staff 
elements that could provide support, resources and oversight. This 
insularity contributed greatly to the mismanagement, impropriety, and 
ineffectiveness uncovered at the Cemetery. Upon the establishment of 
the Executive Director Position, the new Executive Director and her 
staff immediately sought to make connections, and to collaborate 
actively, with the Army commands, staff elements and agencies that 
Secretary McHugh had directed to provide support to ANCP through Army 
Directive 2010-04. In this way, the Executive Director eliminated any 
significant vestiges of insularity in the Cemetery's culture and paved 
the way for improvement in all aspects of ANC's administration, 
operations, and maintenance. It is important to note that, 
notwithstanding the recommendation in the 2010 report to delegate 
responsibility for Arlington to a single command in the Army, Secretary 
McHugh assumed personal responsibility for the Army's failure and for 
ensuring the corrections. I believe a year later that this kind of 
intense management and leadership was necessary as a forcing function 
in order to make the kind of progress we recently witnessed during the 
re-inspection.
    Equally important, the Executive Director and Superintendent are 
equally responsible for leading the effort to successfully transform 
the Cemetery's organizational climate. We administered two Defense 
Equal Opportunity Management Institute surveys to Cemetery employees--
one in January 2011 and one in June 2011. Both surveys reflect 
improving morale and increasing organizational effectiveness in the 
year since the Executive Director and new Superintendent assumed 
leadership responsibility at Arlington National Cemetery. In the 5 
months between the surveys, those who agreed that the overall health 
and morale at Arlington was better than it was a year ago almost 
doubled. The number of those who disagreed or neither agreed nor 
disagreed with that sentiment dropped sharply. Six of seven Equal 
Opportunity areas are now rated as organizational strengths with 
significant improvement in command behavior to minorities reported by 
employees. In organizational effectiveness areas, employee's trust in 
the organization reflected large improvements between the January and 
June surveys, and employees rate five of six areas of organizational 
effectiveness as strengths. Sensing sessions conducted by inspectors 
confirm survey findings. These radical improvements can be directly 
attributed to the leadership style and approach of both the Executive 
Director and the Superintendent.
    Improved Information Technology and Processes. This summer, 
inspectors observed that ANC now possesses a fully-functional 
information technology architecture, enabled by current software 
applications and hardware systems and supported by a comprehensive 
service agreement with the Army's Information Technology Agency (ITA). 
Starting in December 2010, Arlington partnered with ITA to route all 
incoming calls to ITA's Consolidated Customer Service Center (CCSC) at 
Fort Detrick, MD. This process significantly improved customer service 
and enabled a tiered response system which freed Cemetery personnel to 
focus on funeral scheduling while ensuring callers inquiring about 
tourism-related questions were assisted promptly and efficiently by 
CCSC employees. Additionally, the CCSC provided Arlington's Interment 
Services Branch the full capabilities of its Remedy tracking system. 
For example, every call made to the CCSC is now captured in a digital 
file and assigned a Remedy case number in the CCSC's database. This 
allows collaborative resolution by CCSC personnel and Cemetery 
Representatives from the Internment Services Branch. Cemetery 
leadership periodically reviews the CCSC data and applies measures of 
effectiveness to assess staff performance.
    Other improvements to Arlington's information technology 
architecture include the replacement of antiquated and vulnerable 
computer hardware and applications identified in the 2010 report with 
the latest the Army can provide. From now through Fiscal Year 2012, the 
Cemetery and the Veterans Administration are partnering to integrate 
Interment Service System (ISS) and the Burial Operations Support 
System; this enhancement will save significant staff hours within the 
Interment Service Branch. The Cemetery has partnered with the Army's 
Chief Information Officer and Army Data Center-Fairfield to provide 
Arlington with a digital ``Research Tool'' for digitizing burial 
records and headstone photographs. This tool is enabling the Executive 
Director's Gravesite Accountability Task Force to re-establish an 
accountability baseline of each gravesite and inurnment niche at 
Arlington and already assists Cemetery Representatives in generating 
digital records for new interments and inurnments. This digitization of 
all records should be complete in early 2012. Finally, by February 
2012, this digitized database of burial records will automatically 
update a new digital Cemetery map using the Army's most current 
geospatial mapping program; replacing the paper maps that contributed 
to the discrepancies that were the impetus for the initial media 
reports of mismanagement at Arlington. Finally, the Executive Director 
is establishing an operations center to ensure situation awareness of 
all current and future Cemeterial and ceremonial operations at 
Arlington and facilitate the liaison and sharing of real-time 
information with Army, Navy, Marine Corps, and Air Force headquarters 
in the National Capital Region that support the Cemetery every day.
    Improvement in Compliance with Army Information Assurance Focus 
Areas. During the DAIG's Information Assurance (IA) compliance 
inspection of Arlington in 2010, ANC did not meet the Army standard in 
any of the 12 of 14 IA functional areas inspected (two functional areas 
did not apply at that time). In those 12 functional areas, 57 serious 
information assurance deficiencies were identified. The Cemetery's 
information technology architecture was grossly outmoded and 
vulnerable; and the Cemetery's workforce was untrained in these 
critical areas and understaffed in qualified information assurance 
personnel. A follow-on Army compliance inspection of the Cemetery was 
conducted from 20-27 June 2011. Compared to last year's inspection, 
where none of the applicable functional areas met the standard, 
Arlington met Army standards in all applicable information assurance 
functional areas during the most recent inspection. ANC's improved 
information assurance readiness can be is attributed to a strong 
tenant-service provider relationship, leadership focus, and ANC's 
proactive staff. Today, I can report to you Arlington is one of the 
best organizations in the Army for compliance with information 
assurance requirements.
    Improvement in Acquisition and Contracting. During our first 
inspection, we found the Cemetery's procurement and contracting actions 
were not in compliance with Army, Defense Department, and Federal 
acquisition rules and regulations. Untrained and unqualified personnel 
on the Cemetery's staff were developing requirements and committing 
funds to contracts without appropriate oversight. This summer, our team 
reviewed 17 contracts from the Mission Installation Contracting 
Command's (MICC) Fort Meyer and Fort Belvoir offices and eight 
contracts from the Army Corps of Engineer's Baltimore District. Most of 
the MICC contracts were recently completed service contracts which gave 
an indication of current performance. In our reviews, we focused on 
Arlington's pre-award compliance, teaming between Arlington and the 
supporting contracting agencies, requirements packages, and the 
training of contracting officer representatives and their execution and 
oversight of contracts. Finally, we looked at their management controls 
and acquisition processes and procedures. Today, the Cemetery's 
contracting actions are now properly aligned, based on scope of work, 
with either the MICC or the Corps of Engineers. Furthermore, both the 
Contracting Command and the Corps of Engineers are providing support 
teams to the Cemetery and properly providing the oversight necessary to 
ensure that quality contracts are produced and being monitored in 
execution. ANC support teams subject new acquisitions to rigorous 
requirements determination, pre-award compliance checks, and contract 
packet reviews for quality assurance. Active ANC contracts are now in 
accordance with applicable rules and regulations as a result of the 
support, oversight, and resources provided by the Army's appropriate 
contracting commands and procurement support agencies to the Cemetery. 
This improvement is due in no small part to the emphasis the Executive 
Director places on proper contracting practices.
    Budget Formulation and Execution. Arlington is funded separately by 
the Congress through a MilCon/Veteran Affairs Related Agencies funding 
line item. The funds the Cemetery receives are `no-year' funds. The 
2010 Inspection report found the budget and appropriation structure for 
Arlington was exacerbated by the lack of organizational command and 
control. This structure also limited the ability of the Secretary of 
the Army to shift resources to the Cemetery if needed. The Secretary's 
2010 directive directed the Executive Director to realign budget 
oversight and execution along more standard Army practices. The 
Executive Director and her team now work closely with the 
Administrative Assistant (OAA), the Assistant Secretary of the Army for 
Financial Management and Controls, and the General Counsel to improve 
oversight of Arlington's budget formulation and execution. The 
Executive Director's decision to transition Arlington to the General 
Fund Enterprise Business System, providing her and the Army full 
visibility on the Cemetery's expenditures, has been critical to turning 
around perceived budget shortfalls. This transition enabled the 
Executive Director and her staff to reconcile unobligated funds from 
the last several years, something that had not been previously 
accomplished. As a result, during our inspection we found more than 
$15M in un-liquidated obligations generated in the context of faulty 
contracting actions had been recouped and will be applied to future ANC 
budgets.
    The Army Has Effectively Executed and Complied with AD 2010-04. 
During this summer's re-inspection, inspectors found that ANCP and Army 
commands, staff elements and agencies have complied with Army Directive 
2010-04 and effectively executed the tasks Secretary McHugh assigned 
them to enhance the operations and oversight of the Army National 
Cemeteries Program. Furthermore, the Gravesite Accountability Task 
Force is currently on track to complete its task of establishing an 
accountability baseline for all gravesites and inurnment niches with in 
Army National Cemeteries. This baseline will inform the report being 
provided to the Congress no later than 22 December 2011 under the 
provisions of Public Law 111-339.
    The Army Secretariat and Cemetery's new leadership have initiated 
several other actions which will provide for longer term improvements. 
These include changes to the Army policy to document the jurisdictional 
realignment of the Army National Cemeteries program, the creation of a 
new public affairs policy for the Cemeteries, the establishment of more 
effective oversight of ANC's budget formulation and execution, the 
review of ANC contracting in detail, and the establishment of the Army 
National Cemeteries Advisory Commission. To ensure steady progress in 
correcting ANC's deficiencies between the 2010 and 2011 IG inspections, 
Secretary McHugh directed a series of external reviews. These included 
an interim review by the DAIG, and contract reviews by the Assistant 
Secretary of the Army for Logistics and Technology and the Army Audit 
Agency. The Army's Chief Information Officer was directed to conduct a 
complete review of information technology systems and applications. The 
Army's Force Management Agency and Manpower Analysis Agency were also 
directed to review Arlington's force structure and make 
recommendations. All of these directives were properly accomplished. 
These reviews combined with our 2011 follow-up inspection have ensured 
Arlington National Cemetery is receiving the necessary external 
oversight and assessment. It is clear to me that in adhering to 
Secretary McHugh's directive, the Army has effectively set the 
conditions for continued and enduring mission accomplishment to 
standard at Arlington.
    Effective Outreach and Support to Families Regarding Burial 
Discrepancies. During this summer's inspection, we found that the 
ANCP's leadership and staff were professional, compassionate, and 
supportive in providing information, support, and outreach to Families 
of interred and inurned veterans regarding inquiries regarding possible 
burial discrepancies at Arlington. Immediately upon assuming her 
position, the ANCP Executive Director established a hotline at 
Arlington to respond to burial inquiries and developed a tiered system 
to ensure that proper efforts were made to address family member 
concerns. In several cases, even though documents confirmed the 
locations of the deceased, the Cemetery supported family requests for 
physical verification in order to fully satisfy their concerns. To 
date, the Cemetery has received almost 1,300 inquires from family 
members. Since the hotline was established, in all but thirteen cases 
(which include the eight urns with cremated remains found together in 
one unmarked grave in October 2010), the Cemetery was able to assure 
family members that there were no discrepancies regarding the burial 
locations of their loved ones. In the 13 cases of substantiated burial 
discrepancies, the Cemetery worked closely with each family concerned 
and invited their participation (at Army expense, when required) in 
correcting the error and correcting and updating records accordingly. 
In the case of eight urns found in a single grave, only four were able 
to be positively identified. The Cemetery has reinterred the 
unidentified urns as ``Unknown'' remains, with the full dignity and 
respect they provide at any funeral service. To ensure that these 
inexcusable breaches of procedure are prevented in the future, the new 
Executive Director and Superintendent have thoroughly revised the 
Cemetery's procedures for interring and disinterring veterans to ensure 
safeguards exist to prevent this kind of behavior in the future. The 
Executive Director and Superintendent published a 20 June 2011 policy 
memorandum titled Assurance of Proper Casket/Urn Placement. This policy 
addresses procedures the Cemetery staff must apply, beginning with the 
intake of the burial request through interment, specifies training and 
accountability measures, and provides guidance for correcting the 
misplacement of casketed or cremated remains. In each step, ANC Field 
Operations Supervisors are required to physically confirm preparation 
and closure of graves and countersign a ``dig slip'' to verify that 
remains are interned or inurned in the correct gravesite. The 
Cemetery's General Foreman then inspects the process to ensure no 
deviation from the standard. The Cemetery continuously trains the 
workforce on these procedures and provides consistent, direct 
supervision. Because of these improvements, Arlington has experienced 
no burial discrepancies in the last year.
     DAIG'S 2011 RE-INSPECTION OF ANCP AND ANC: KEY RECOMMENDATIONS
    While the Army and ANCP staff have made great strides in correcting 
deficiencies noted in the DAIG's 2010 inspection, fulfilled Secretary 
McHugh's guidance issued in Army Directive 2010-04 and supported 
Families regarding burial errors, there is still more to do at 
Arlington. In this recent report, we presented Secretary McHugh with 53 
recommendations designed to enhance the progress made to this point. A 
description of some of our key recommendations follows.
    Policy Documentation. Army Directive 2010-04 established immediate 
oversight mechanisms to improve information technology, information 
assurance, contracting, engineering support, and force structure. In 
his directive, the Secretary established the Executive Director as the 
proponent for all policies related to the Army National Cemeteries 
Program. In this capacity, the Executive Director has been working with 
the Army Staff in updating the rule to the Code of Federal Regulations 
which applies to Arlington National Cemetery.
    Additionally, the Executive Director is now working closely with 
the Headquarters, Department of the Army Staff to begin updating AR 
290-5. We recommended in the 2011 report that the Executive Director 
should incorporate requirements for long-term, robust and continuous 
oversight processes and mechanisms in a revision of Army Regulation 
290-5. We also recommended that the Executive Director should revise 
Department of the Army Pamphlet 290-5, Administration, Operation, 
Maintenance of Army Cemeteries, to provide all 28 Army post cemeteries 
with sound, authoritative, and current guidance on standardized 
processes and procedures for cemetery operations. As part of the 
revision of this Pamphlet, we also recommended that any policies, 
processes, and procedures peculiar to Arlington be removed from the DA 
Pamphlet and instead be published in Arlington National Cemetery's 
standing operating procedures.
    Creation of a Multi-Service Policy for Arlington. We recommended a 
multi-Service policy for Arlington. Servicemembers and veterans of all 
five Services (and Family members) are eligible for burial at Army 
National Cemeteries. Excluding Servicemembers who are killed in combat 
operations, wait times for funerals and burial are increasing and vary 
by Service. For example, in June 2010, it took an average of 74 days 
(from the day eligibility was determined) before a deceased veteran was 
interred/inurned with full honors at ANC, compared to 87 days in June 
2011, with a range of delay of almost 30 days between Services. This 
disparity in wait times is attributed to the lack of a multi-Service 
policy for interment/inurnment honors and the different procedures 
employed by the Services to manage ceremonial and band units. The 
increase in wait times is due to the more accurate tracking of calls by 
the call center which created a more accurate demand signal for burials 
at Arlington than was being obtained under the previous administration. 
Under the previous system, Arlington lacked even a voice mail system 
for callers who were not able to reach a live person on the phone. Many 
of these families ultimately gave up having their loved ones buried at 
Arlington and sought arrangements elsewhere and the Cemetery never knew 
about their attempts. With the new call center, callers are assured of 
getting through to Arlington and getting a case opened to have their 
loved ones interred or inured, and therefore are more accepting of the 
delay because they know they will receive services. As trust in 
confidence has been restored, the true demand signal for burial at 
Arlington has increased, thereby increasing wait times. However, 
because of the lack of a multi-Service policy for interment/inurnment 
honors and the different procedures employed by the Services to manage 
ceremonial and band units, we have recommended the Army Secretariat 
engage the Office of the Secretary of Defense (OSD) to develop common 
policy, processes and procedures for honors and cemetery support 
operations that apply to all the Armed Services.
    Long Term Command, Control, and Oversight of Army National 
Cemeteries. The Army must sustain the progress made at Arlington and 
prevent the Cemetery from returning to the insular organization it once 
was. We note that the Executive Director and her staff have 
fundamentally transitioned the control mechanisms and oversight of 
Cemetery operations. However, to ensure this continues in the long-
term, we recommend the Department of the Army Deputy Chief of Staff, G-
3/5/7 provide Secretary McHugh options on how to best integrate, long-
term, the Army National Cemeteries Program's command and control, 
organizational alignment and support relationships in accordance with 
established Army organizational structure (as a Direct Reporting Unit 
or Field Operating Agency, for example). We believe establishing this 
type of organizational identity and standard command and control 
structure for ANC will better align long-term responsibilities and 
oversight.
    Inquiry into Wait Times and Cemetery Lifespan. During our 
inspection, we found that interments and inurnments at Arlington are 
increasing each year and that wait times at Arlington continue to 
increase. This may result in the Cemetery reaching its capacity before 
current projections. We recommended the Secretary of the Army request 
the Army National Cemeteries Advisory Commission, when convened, to 
examine the causes and effects of increasing wait times and increasing 
demand, and then make recommendations to contend with these issues.
                               CONCLUSION
    As our inspection report indicates, the progress made at Arlington 
since last June is a ``good news'' story and shows a significant turn-
around in performance at the Cemetery. Our inspection team found that 
the ANCP Executive Director, Superintendent, and staff are 
systematically correcting the deficiencies enumerated in the 2010 DAIG 
inspection report. As Secretary McHugh directed, Army agencies and 
organizations have completed (or are in the process of completing) the 
tasks specifically assigned to them in Army Directive 2010-04. Finally, 
the inspection team also found that ANCP's efforts at providing 
outreach, information and support to Family members regarding burial 
discrepancies were professional and supportive. Simply put, the 
mismanagement that was found at the Cemetery in 2010 no longer exists.
    The improvements observed and reported by the DAIG validate the 
Secretary's approach to restoring the processes, systems, and 
management we found to be missing at Arlington in 2010. This strategy--
executed passionately and diligently by the Cemeteries new leadership 
and staff, with the support of the Army, the Defense Department, other 
Federal agencies, and Congress--have set the conditions for continued 
improvement and ultimate success.
    With this good news comes a realization that more hard work lays 
before us. The leadership and staff of the Army National Cemeteries 
Program must continue to complete the painstaking work required to 
update the Army's relevant policy and procedural documents. The 
gravesite accountability baseline must be completed accurately and on 
time. The efficiencies and tools built and employed in the critical 
effort to establish gravesite accountability must be applied to the 
processes and systems currently at use at Arlington to avoid any future 
loss of fidelity. The Cemetery must complete the enhancement of its 
internal processes, protocols, and systems, and document these 
enhancements to ensure future effectiveness. Finally, the Army must 
optimize and institutionalize the support and oversight it provides its 
National Cemeteries and apply what it has learned and to all 
cemeteries, great and small, under Army purview.
    As the Army's Inspector General, I know that restoring Arlington 
remains a priority for the Secretary. In reflecting on the observations 
our agency has made during the many months of inspecting Arlington, I 
am confident that the Army National Cemeteries Program and the Army 
will succeed in this great endeavor.

                               __________
                                  FOUO
                                                   1 September 2011
                           Inspection Summary
           Inspection of the Army National Cemeteries Program
                    and Arlington National Cemetery
What We Did:

    From 2 May to 5 August 2011, the Department of the Army Inspector 
General (DAIG) conducted a reinspection of the Army National Cemeteries 
Program (ANCP) and Arlington National Cemetery (ANC). The reinspection 
and this report served to assess and document compliance with, and the 
implementation and effect of, the approved recommendations of the 
DAIG's inspection report conducted on 9 June 2010. With a view to 
enabling the Secretary of the Army's report to Congress, as mandated by 
Public Law 111-339, dated 22 December 2010, the report also reflects 
findings and recommendations regarding the implementation of Army 
Directive (AD) 2010-04, dated 10 June 2010, and the review of ANC 
practices to provide information, outreach and support to families of 
individuals buried at ANC regarding procedures to detect and correct 
burial errors. The inspection team identified 31 observations, 2 other 
matters and made 53 recommendations.
What We Found:

    <bullet>  The ANCP and ANC staffs are implementing the 
recommendations from last year's inspection report. Significant 
progress has been made in all aspects of the Cemetery's performance, 
accountability and modernization.
    <bullet>  ANC and other Army agencies have executed their assigned 
tasks effectively, resulting in significant improvements at both Army 
National Cemeteries over the past 13 months and setting conditions for 
future success. Most critically, ANCP is on track to complete an 
accountability baseline for all gravesites and inurnment niches at ANC 
to support the Secretary's report to Congress on 22 December 2011.
    <bullet>  ANC's efforts to provide information, as well as, 
outreach and support to families regarding burial discrepancies were 
professional and supportive.
    <bullet>  Wait times are increasing for all types of ANC interment 
I inurnment services except for servicemembers killed-in-action. 
Requests for burial at ANC also are increasing and, at the current 
rate, ANC will be required to expand its capability to conduct in-
ground burials before 2035.
What We Recommend:
    The Secretary of the Army direct specified Headquarters, Department 
of the Army Staff elements and Army Field Operating Agencies to execute 
tasks intended to sustain and enhance the progress being made at ANC.

                                 <F-dash>
      Prepared Statement of Kathryn A. Condon, Executive Director,
   National Cemeteries Program, Office of the Secretary of the Army, 
           Department of the Army, U.S. Department of Defense
                           Executive Summary
    To the credit of the leadership and the workforce at Arlington 
National Cemetery, the DAIG report indicates that significant progress 
has been made in all aspects of the cemetery's performance, 
accountability and modernization. The following bullets demonstrate the 
progress that has been, and continues to be made to restore the 
Nation's confidence in Arlington National Cemetery (ANC).

    <bullet>  Workforce and Training: ANC has increased the end 
strength by 50 percent filling positions in key areas to efficiently 
run its complex missions. A priority for ANC leadership is training the 
workforce to industry best practices, standards and measures, as well 
as implementing standards operations and an internal assessment 
program.
    <bullet>  Accountability: Restoring faith and confidence of the 
American people starts with demonstrating a greater sense of 
accountability in all aspects of Arlington National Cemetery. 
Leveraging the Gravesite Accountability Task Force is the method ANC is 
using to establish an accountability baseline of all gravesites and 
inurnment niches. The implementation of the General Fund Enterprise 
Business System (GFEBS) allows Arlington to be fiscally fully 
transparent and provide fiscal stewardship of all funds. Validating ANC 
contract requirements and recompeting all service contracts reduced the 
number of total service contracts from 26 to 16. Arlington also has 
instituted disciplined processes with oversight and direction to 
enhance procurement operations.
    <bullet>  Customer Focus: The care families deserve in their time 
of need requires a prompt, compassionate and professional engagement 
from ANC. As a result of family member inquires, we have conducted 16 
physical gravesite verifications. Additionally, to streamline all 
customer interactions, ANC implemented the Consolidated Call Center and 
launched a new user friendly Web site allowing us to communicate in a 
relevant way with our stakeholders.
    <bullet>  Advisory Commission: As directed by the Secretary of the 
Army, the Army National Cemeteries Commission is on track to hold its 
first meeting this fall. This Federal Advisory Commission will provide 
an independent and holistic look at the future of Arlington and how 
best the Army and the Department of Defense can maintain the heritage 
of these scared burial grounds.
    <bullet>  Sustaining ANC: ANC has accelerated the construction of 
Columbarium Court 9, which will add 20,000 niches for inurnment 
services. Expansion plans for Arlington include 31 acres of undeveloped 
land known as the Millennium Project and 42 acres that will come with 
the Navy Annex property which will be acquired at the end of the 
calendar year.

    ANC is dedicated to ensuring a place for the public to Honor, 
Remember and Explore the rich history of this great Nation. The 
cemetery had increased--and continues to work harder--its capacity to 
reach every generation in a relevant and compelling way.

                               __________

    Mr. Chairman and distinguished Members of the Subcommittee, thank 
you for the opportunity to provide an update on progress at Arlington 
National Cemetery.
                              INTRODUCTION
    On June 10, 2010 circumstances at ANC came to light that degraded 
the trust and confidence of the American public. As you know, Mr. 
Chairman, widespread reports caused us all extreme concern regarding 
the level of standards and the quality of care taken to inter our 
Nation's veterans and their loved ones at Arlington Cemetery.
    After conducting an intensive review of Cemetery operations, a 
salient fact emerged. The main contributor to the state of Arlington at 
that time can be described as a lack of standards, a reliance on a 
number of ineffective business and operational practices and 
ineffective implementation of technology solutions. The organization 
still used typewriters to record critical information about veterans' 
interment services and index cards held the record of burial for those 
laid to rest at Arlington. The skills of the workforce were misaligned 
to organizational needs and training was inadequate to properly and 
effectively perform assigned duties. Perhaps most important: effective 
rigor was not in place to maintain a standard of accountability 
befitting our veterans and their families. We have addressed this lack 
of standards and we are meeting the accountability challenge. Arlington 
now is on the path to meet the high quality standards expected of our 
Nation's preeminent military cemetery.
    Before addressing the Inspector General Report, it is important to 
recognize and acknowledge the courage and leadership of the Secretary 
of the Army, the Hon. John McHugh, who recognized the challenges and 
took bold steps. Secretary McHugh brought to bear the resources 
required from across the United States Army and Department of Defense 
to make meaningful corrections. We are grateful and honored that 
Secretary McHugh has placed his trust in our leadership and abilities 
to right the wrongs at Arlington.
                PROGRESS AT ARLINGTON NATIONAL CEMETERY
    To be sure, Mr. Chairman, we have made tremendous progress at 
Arlington National Cemetery. Although much has been accomplished, we 
have much work to do. Yet, it is important that we recognize the 
diligent efforts put forth by the workforce each day. When we arrived 
at the cemetery 15 month ago, we found a workforce that was demoralized 
and lacked direction. Today that is no longer true.
    Additionally Mr. Chairman, we found capability gaps in key areas of 
the Cemetery staff that needed to be addressed to move forward. The 
first gap filled to rebuild the workforce was hiring one of the most 
experienced, knowledgeable cemetery administrators in the land, Mr. 
Patrick Hallinan, as the ANC Superintendent. His 35 years in the 
industry set the pace for excellence by personally training the 
cemetery operations workforce to effectively accomplish the 
extraordinary mission at Arlington.
    Over the past year, we filled positions in other key areas 
important to efficiently run the complex missions of Arlington National 
Cemetery. We increased workforce end strength by nearly 50 percent and 
implemented a new organizational structure to manage the new augmented 
workforce. The organization already has made significant and measurable 
improvement and we will continue to evolve to meet/exceed the 
expectations of our many stakeholders.
    We continue to implement a comprehensive training program for our 
workforce. Starting with a six-step chain of custody process, 
implemented by Superintendent Hallinan, the staff is focused on 
maintaining positive identification of remains during pre-burial 
activities and ensures positive identification of remains when 
disinterment is required. These identification practices apply to all 
types of receptacles for remains. Additionally, to aid with the 
oversight of fiscal stewardship, several members of the workforce have 
successfully completed contracting officer representative, regulatory 
ethics, and government purchase card program training.
    We have stood up the Gravesite Accountability Task Force; a joint 
military-civilian team focused on driving greater accountability and 
restoring faith and confidence of the American people. The actions of 
the Task Force will meet and exceed requirements of Army Directive 
2010-04 and Public Law 111-339. The Accountability Task Force has 
digitally photographed 100 percent of the markers and niche covers and 
initiated a digital scan of all supporting paper records. We have 
leveraged Army technology experts, notably at the Army Data Center 
Fairfield, California, now named The Army Analytics Group, to create 
the tools necessary to review and electronically cross reference all of 
our records dating back to the Civil War. Task Force personnel work 
daily reviewing every record and assembling a single authoritative data 
base for Arlington National Cemetery. The business processes built by 
the Gravesite Accountability Task Force are now the day-to-day 
standards and practices which the workforce applies to ensure the 
validation process is sustained as we move forward.
    We have resolved the 211 map discrepancies identified in the 2010 
Inspector General report over the past year. As well, as a result of 
family member inquiries, we have conducted 16 physical gravesite 
verifications.
    Mr. Chairman, the Army has made a tremendous leap in effective use 
of technology at Arlington, bringing the cemetery into compliance with 
information assurance requirements established by the Army's Chief 
Information Officer. We have replaced the paper records of the past, 
with a digital system that uses industry best practices in database 
management. To schedule interments, our team is leveraging a state-of-
the-art system that ensures visibility for all appropriate stakeholders 
and an ability to share information like never before. We have 
initiated a Geospatial Application Development initiative at Arlington. 
This will form a ``Google-maps'' like information system that enables 
the Cemetery to better manage the grounds, grave and niche assignments 
and provide street directions and site locations to our guests. 
Arlington has embarked on an all-encompassing effort to develop 
baseline enterprise architecture. This formal review will capture all 
business processes and dependencies and drive the development of 
integrated solutions. By formally documenting all requirements, 
information technology can be applied in a consistent way that 
eliminates redundancy while increasing availability and most 
importantly, accuracy of cemetery data.
    Most recently, we launched a new Arlington National Cemetery Web 
site that rivals the looks and functionality of any Web site on the 
Internet. I encourage you to review the new Web site and see firsthand 
how we communicate in a more relevant way with our stakeholders.
    We have ensured fiscal accountability and stewardship through the 
implementation of the General Fund Enterprise Business System (GFEBS) 
to ensure full visibility on all cemetery expenditures. GFEBS allows 
Arlington to be fully transparent and provide fiscal stewardship of all 
funds expenditures, accurately capturing the true cost to operate this 
national shrine on an annual basis.
    As you know, Mr. Chairman, Arlington encountered challenges in the 
area of contracting resulting in the improper management of millions-
of-taxpayer dollars. Over the last year, we have validated Arlington's 
contract requirements and re-competed all service contracts. In so 
doing, we reduced the number of total service contracts from 26 to 16.
              ARLINGTON NATIONAL CEMETERY: MOVING FORWARD
    While we have had to look back over the past 15 months to affect 
meaningful change at Arlington, we also have set the pace for the 
future of these hallowed grounds.
    In late August, the Army National Cemeteries Commission, as 
directed by Secretary McHugh, had eight of nine nominees approved for 
appointment by the Office of the Secretary of Defense. This Federal 
Advisory Commission will provide an independent and holistic look at 
the future of Arlington and how best the Army and the Department of 
Defense can continue the legacy of dignified services on these hallowed 
burial grounds for our Nation's veterans and their families while 
preserving the rich history of the 628 acres nestled along the rolling 
hills across the Potomac River from our Nation's capital.
    We have directed the development of a revised Master Plan. As part 
of that effort, the cemetery has put in place a plan for interring and 
inurning remains beyond 2016, the year it presently is projected to run 
out of above ground inurnment space. To meet burial needs for all 
veterans, we have accelerated plans for erecting an additional 20,000-
niche columbarium to extend above ground burial space to last until 
2024. Additionally, we re-evaluated and developed new options for the 
planned development associated with the Millennium Project, which also 
provides for additional above and below ground burial space from 
undeveloped land from adjoining Joint Base Myer Henderson Hall. The 
United States Army Corps of Engineers' Norfolk District is applying 
best practices to determine the most effective and efficient cemeterial 
use of this land as well as the Navy Annex property to be acquired at 
the end of this calendar year.
    Arlington National Cemetery is a place available for every 
generation to Honor, Remember, and Explore the depths of the creation 
of this great Nation and the heroes which have made incredible 
sacrifices for freedom. We have greatly increased our capacity to reach 
every generation through our new Web site which veterans, family 
members and children will find engaging, user friendly, and 
informative. We want all to explore the cemetery's rich history, to 
touch the final resting place of their loved ones who have sacrificed 
for our Nation's freedoms, and to enjoy the landscape of our Nation's 
capital. Nowhere else in the world can one find the magnificent social 
and military history of the Civil War, witness first-hand our Nation's 
reverence for our war dead at the Tomb of the Unknowns, and memorialize 
significant National events such as space shuttle tragedies and the 
attacks of 9/11. We owe our veterans, their families and all future 
generations a full accounting at Arlington National Cemetery and that 
is exactly what we intend to provide. We look to the future to make 
Arlington a place to Honor, Remember, Explore.
                               CONCLUSION
    Conducting military burial services with dignity, honor and 
precision has been a part of the fabric of Arlington National Cemetery 
since its very first burial more than 150 years ago. Those at Arlington 
who lay to rest our national heroes and their families have always had 
a special, unbreakable bond with the Soldiers, Sailors, Marines and 
Airmen of this Nation's fighting forces. During the average of 27 
services per day at Arlington, they lay to rest one of their own. We 
are proud of the work we have accomplished over the last 15 months to 
bring all aspects of Arlington in line with the rich, proud and 
dignified traditions befitting our Nation's military heroes.
    Thank you for your attention today and for allowing me to share our 
progress to date. I look forward to answering your questions.

                                 <F-dash>
  Statement of Ian de Planque, Deputy Director, National Legislative 
                    Commission, The American Legion
    Mr. Chairman and Members of the Committee:

    The hallowed ground of Arlington National Cemetery, a little over 
600 acres of northern Virginia hillside, has stood since the Civil War 
as the crown jewel of reverence for fallen warriors, the men and women 
who have served this Nation in peacetime and war in the air, on land 
and at sea. Arlington National Cemetery is the epicenter of a country's 
reverence for these servicemembers. This is the sacred ground of the 
Tomb of the Unknown Soldiers, and John F. Kennedy's Eternal Flame.
    Over the last several years, the American public has learned the 
manner in which past management of these grounds led to a state of 
disorder, disrepair and disrespect that was clearly disgraceful. There 
is very little to be served by reciting a litany of the past failures. 
Rather it is far more important to acknowledge the intervening 
successes and recognize the remaining challenges.
    Last summer, in June of 2010, the transition of management began. 
Kathryn Condon took up the post of Executive Director of the Army 
National Cemeteries Program, and other changes would follow. Director 
Condon and her team have been tireless and honest, sometimes brutally 
so, in the pursuit of righting this sinking ship. The American Legion 
applauds Director Condon for her forthright efforts to correct these 
errors.
    In Washington, it is not unheard of to sweep unpleasant truths out 
of the public eye. Facts which reflect poorly upon an organization or 
program are recast with new spin. It's almost unheard of to admit to 
shortcomings and failings. Given the preoccupation with self-
preservation, the candor from the new management team over the past 
year has been refreshing. This administration has not shied from hard 
truths; they have instead met them head on.
    The news coming from the cemetery was seldom good, and often 
horrifying, but it was also honest. America learned of mislabeled 
remains, and bodies of our Nation's fallen heroes buried in the wrong 
locations. This was not some trivial matter thought to have occurred 
once or twice, but perhaps in thousands of locations. Cemetery staff, 
when questioned by incoming management regarding standard procedure 
manuals for burials and plot alignment, admitted no such written 
records existed, and work had been handed down by word of mouth. 
Electronic records did not exist; information was stored on index 
cards. As anyone who has spent even an hour in the armed forces will 
tell you, military operations succeed largely due to rigid adherence to 
standard operating procedures. Arlington Cemetery had none of these 
standard operating procedures, only a collection of anecdotal practices 
likely to vary from one person to the next.
    Perhaps the only thing more eye-opening than the litany of prior 
failings at the cemetery was the willingness of new management to dig 
deep enough to find all of the errors and begin plans to set them 
aright.
    Over a year later, Arlington Cemetery is far from fixed, but it is 
on the road to recovery. The American Legion believes it is important 
to call attention to the hard work and dedication of this staff because 
it is far outside the norm for business as usual in Washington. In 
government, all too often when problems surface, they are swept under a 
rug in the hopes a distracted public will soon forget and move on to 
the next issue of outrage.
    The willingness of Director Condon and her staff to meet these 
issues openly, with candor and sensitivity, yet still with unflinching 
honesty, is worthy of high praise. The behavior of these individuals 
should be an example to the rest of the Federal Government in how to 
behave when you let the public down. They do not make excuses. They do 
not make empty promises. They roll up their sleeves, humbly tell you 
they are sorry for past actions and are willing to make things right, 
and then they go about doing just that.
    Whether the Army retains the ultimate ongoing responsibility of 
managing, operating, and maintaining Arlington National Cemetery and 
the U.S. Soldiers' and Airmen's Home National Cemetery remains to be 
seen. The American Legion has made clear our position that this 
responsibility would best be placed under the auspices of the National 
Cemetery Administration and their long track record of operating the 
Nation's 131 national cemeteries. Under such reorganization, of course 
the ceremonial duties would be preserved as the domain of the Army 
through the 3rd U.S. Infantry Regiment, ``The Old Guard.'' The American 
Legion believes the responsibilities of ``The Old Guard,'' which 
include conducting military ceremonies, manning the 24-hour vigil at 
the Tomb of the Unknowns, and being the provider of military funeral 
escorts at Arlington, should never change, as a result of any 
reorganization associated with Arlington National Cemetery.
    Each and every agency of the Federal Government is charged with a 
mission. For the Army, that mission is providing for the Nation's 
defense. For the National Cemetery Administration that mission is to 
provide dignified burial for military veterans and their families and 
to maintain our Nation's military cemeteries as the national shrines we 
expect them to be. While The American Legion believes the U.S. Army is 
certainly capable of executing duties outside those most basic to 
providing for the national defense with honor and success, we do not 
believe there is reason to call upon them to do so when there is a body 
such as NCA capable of meeting those needs.
    We cannot escape the past of Arlington. The Army asked to be given 
the chance to erase the dark stain upon their honor and through the 
efforts of the current administration they have done so. Every day the 
men and women who work to restore Arlington to its unimpeachable ideal 
bring honor to the Army, and most importantly to the men and women they 
serve; the interred remains of our fallen. The American Legion applauds 
the efforts and results of those who have worked so hard to turn 
Arlington back to the proper path. While the destination of that path 
has yet to be determined, it can at least be said those responsible for 
shepherding this sacred place of honor down that path are doing so with 
the respect and dedication needed.

                                 <F-dash>
  Statement of Reserve Officers Association of the United States and 
           Reserve Enlisted Association of the United States
INTRODUCTION--Reserves are part of the Total Force
    Mr. Chairman and Members of the Subcommittee, the Reserve Officers 
Association (ROA) and the Reserve Enlisted Association (REA) would like 
to thank the Subcommittee for the opportunity to submit testimony. ROA 
and REA applaud the ongoing efforts by Congress to address issues 
facing veterans and serving members such as veteran status, mental 
health assessments, tax exemptions, and claims processing.
    Though contingency operations in Afghanistan and Iraq are expected 
to drawdown currently there are still high levels of mobilizations and 
deployments, and many of these outstanding citizen soldiers, sailors, 
airmen, Marines, and Coast Guardsmen have put their civilian careers on 
hold while they serve their country in harm's way. As we have learned, 
they share the same risks and their counterparts in the Active 
Components on the battlefield. Recently we passed the 800,000th mark 
for the number of Reserve and Guard servicemembers who have been 
activated since Post-9/11. More than 275,000 have been mobilized two or 
more times. While the United States is creating a new generation of 
combat veterans that come from its Reserve Components (RC), Arlington 
policies remain pre-September 11, 2001. We can't ignore the benefits 
that they are entitled or overlook their selfless service to their 
country
DISCUSSION--not all Reserve warriors are entitled to Arlington Burials
    ROA and REA have long supported the concept of ``total force.'' 
National Guard and Reserve members deserve parity in benefits as they 
both backfill for, and serve alongside members of the Active component. 
With the Nation at war in two theaters, the Reserve Component has 
played a major role in the success of the volunteer armed forces, with 
Reserve Component members who been killed in the line of duty being 
honored with burial eligibility at Arlington National Cemetery (ANC). 
ROA maintains that this eligibility criteria needs to be expanded.
    Given that over 800,000 National Guard and Reserve servicemembers 
have answered their Nations call to serve on active duty for both home 
land defense and overseas contingency operations, it is ironic that by 
returning to Selective Reserve status, they are no longer eligible for 
burial at ANC unless they have been decorated with a Purple Heart, a 
Medal of Valor, a Silver Star or higher.
    Qualifying for retirement with 20 years of satisfactory Federal 
service is not enough either. National Guard and Reserve members must 
be retired in pay to be burial eligible.
    ROA supports in-ground burial eligibility for:

        <bullet>  Any Reserve Component member who has served on active 
        duty honorably in a combat or hazardous duty zone, but who has 
        not been killed in the line of duty.
        <bullet>  National Guard and Reservists who are killed in the 
        line of duty whether on Active Duty for Training (ADT), Active 
        Duty for Special Work (ADSW) for less than 30 days, or 
        Individual Duty Training (IDT).
        <bullet>  Deceased gray-area retirees, if entitled to 
        retirement pay under Title 10.
        <bullet>  Spouses, surviving spouses, or dependent children of 
        any group of eligible National Guard and Reserve members.
Codifying the Rules for Interment in Arlington National Cemetery
    In regard to the rules for interment in ANC, ROA continues to 
support the codification of all the rules governing access to ANC. ROA 
strongly recommends that the Committee take up the issue of the overall 
codification of the rules governing ANC burial at their earliest 
opportunity
Background
    Currently, ``gray-area'' retirees, who have retired from the 
National Guard or Reserve but are under the age of 60, as well as 
current Guard and Reserve servicemembers who die while conducting their 
training periods, are ineligible for burial at ANC, while their active 
duty counterparts are eligible under similar circumstances.
    The duties of the National Guard and Reserve, which include pilots, 
combat warriors, elite Special Forces, military police and numerous 
other vital MOS roles, are assuming risks in training for their 
missions. This training is performed outside of active duty.
    Under Army regulations, 32 CRF 553.15, the persons specified below, 
whose last period of active duty in the Armed Forces ended honorably, 
are eligible for in-ground burial at Arlington National Cemetery:

         1.  Any active duty member of the Armed Forces, except those 
        servicing on active duty for training purposes only.
         2.  Any veteran retired from active military service with the 
        Armed Forces.
         3.  Any veteran who is retired from the Reserves is eligible 
        upon reaching the age of 60 and who is drawing retired pay, and 
        who served a period of active duty (other than for training).
         4.  Any former member of the Armed Forces separated honorably 
        prior to October 1, 1949, for medical reasons with a 30 percent 
        or greater disability rating effect on the day of discharge.
         5.  Any former member of the Armed Forces awarded one of the 
        following decorations: Medal of Honor, Distinguished Service 
        Cross (Air Force Cross or Navy Cross), Distinguished Service 
        Medal, Silver Star, or Purple Heart.
         6.  The current and any former President of the United States.
         7.  Any former member of the Armed Forces who served on active 
        duty (other than for training purposes) and held any of the 
        following positions: an elective offices of the U.S. 
        Government, Office of the Chief Justice of the United States or 
        an Associate Justice of the Supreme Court of the United States, 
        an office listed, at the time the individual held the position, 
        in 5 USC 5312 or 5313 (Levels I and II of the Executive 
        Schedule), or the chief of a mission who at the time during his 
        or her tenure was classified in Class I under the provision of 
        Section 411, Act of 13 August 1946, 60 Stat. 1002, as amended 
        (22 USC 866) or as listed in the State Department memorandum 
        dated March 21, 1988.
         8.  Any former prisoner of war (POW) who, while a POW, served 
        honorably in the active military, naval or air service, whose 
        last period of service terminated honorably and who died on or 
        after November 30, 1993.
         9.  The spouse, widow or widower, minor children, permanently 
        dependent children, and certain unmarried adult children of any 
        above eligible veterans.
        10.  The widow or widower of: a member of the Armed Forces lost 
        or buried at sea, or officially determined missing in action, a 
        member of the Armed Forces buried in a U.S. military cemetery 
        overseas maintained by the American Battle Monuments 
        Commission, or a member of the Armed Forces interred in 
        Arlington National Cemetery as part of a group burial.
        11.  The parents of a minor child, or permanently dependent 
        child whose remains, based on the eligibility of a parent, are 
        buried in Arlington National Cemetery. A spouse divorced from 
        the primary eligible, or widowed and remarried, is not eligible 
        for interment.
        12.  The surviving spouse, minor children, and permanently 
        depended children of any eligible veteran buried in Arlington 
        National Cemetery.
        13.  Provided certain conditions are met, a former member of 
        the Armed Forces may be buried in the same grave with a close 
        relative who is buried in Arlington National Cemetery and who 
        is primary eligible.
Conclusion
    The rules for interment at Arlington National Cemetery were 
intended to allocate remaining burial capacity in the cemetery to honor 
those who have contributed to the national security of the United 
States. Yet, recently acquired land has removed the urgency of an 
allocation that excludes the National Guard and Reserve members. In a 
``total force,'' care must be taken to recognize the contributions of 
the National Guard and Reserve members who are performing the same 
missions as their counterparts. They should be allowed the same 
eligibility at the time of their death.
    The Reserve Officers Association and Reserve Enlisted Association 
again thank the Subcommittee for holding a hearing on this subject, and 
permitting ROA and REA to submit a statement for the record.

                                 <all>

</pre></body></html>
